<html>
<title> - SOMALIA: U.S. POLICY OPTIONS</title>
<body><pre>[Senate Hearing 107-416]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-416
 
                      SOMALIA: U.S. POLICY OPTIONS
=======================================================================




                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 6, 2002
                               __________

       Printed for the use of the Committee on Foreign Relations











 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate




                            U.S. GOVERNMENT PRINTING OFFICE
78-905                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                 ------                                

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                RUSSELL D. FEINGOLD, Wisconsin, Chairman
CHRISTOPHER J. DODD, Connecticut     BILL FRIST, Tennessee
BARBARA BOXER, California            SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         GORDON H. SMITH, Oregon
    Virginia

                                  (ii)

  











                            C O N T E N T S

                              ----------                              
                                                                   Page

Feingold, Senator Russell D., U.S. Senator from Wisconsin, 
  prepared statement.............................................     2
Kansteiner, Hon. Walter H., Assistant Secretary of State for 
  African Affairs, Department of State, Washington, DC...........     3
    Prepared statement...........................................     6
Macpherson, Robert, Director, Protection and Security Unit, CARE 
  USA, Atlanta, GA...............................................    31
    Prepared statement...........................................    33
Menkhaus, Dr. Ken, associate professor of Political Science, 
  Davidson College, Davidson, NC.................................    15
    Prepared statement...........................................    17
Shinn, Dr. David H., former U.S. Ambassador to Ethiopia and 
  Special Coordinator for Somalia, Washington DC.................    24
    Prepared statement...........................................    28

                                 (iii)

  








                      SOMALIA: U.S. POLICY OPTIONS

                              ----------                              


                      WEDNESDAY, FEBRUARY 6, 2002

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Russell D. 
Feingold (chairman of the subcommittee), presiding.
    Present: Senators Feingold, Bill Nelson, and Frist.
    Senator Feingold. I will call the hearing to order. I want 
to thank all the witnesses for being here today and, of course, 
extend my thanks to Senator Frist, the former chairman and 
current ranking member of this subcommittee. In both roles he 
has been just an excellent partner and has shown genuine 
leadership on African issues, and I am very grateful we could 
continue to work together.
    Today's hearing is the first in what I hope will be a 
series of hearings conducted over the course of the year, 
prompted by the current campaign against terrorism. In the wake 
of the attacks on September 11, the President was right to make 
plain that the United States will not distinguish between the 
terrorists behind the attacks and those who harbor them, but 
state sponsors are only part of the problem. The absence of a 
functioning state is another.
    All the characteristics of some of Africa's weakest states, 
manifestations of lawlessness such as piracy, illicit air 
transport networks, and traffic in arms and gemstones and 
people, can make the region attractive to terrorists and 
international criminals.
    Second, the subcommittee seeks to identify long-term policy 
options for changing the context in these states, such that 
they are no longer as appealing to criminal opportunists. 
Somalia is the first case the subcommittee will take up this 
year. This hearing asks the question, what are the prospects 
and options for a coherent, long-term Somalia policy that aims 
to strengthen state capacity and curtail opportunities for 
terrorists and other international criminals within Somalia's 
borders, and throughout the year I would also like to raise a 
followup, how do we strengthen the state responsibly when all 
too often state capacity is used not to track the behavior of 
criminals but rather the behavior of political opponents.
    In other words, how can we strengthen the law enforcement 
capacity of weak states, and then also avoid the mistakes of 
the cold war, when in the name of resisting and containing 
communism this country sometimes assisted some truly appalling 
regimes in Africa, governments that pursued policies 
antithetical to our national values, leading to disastrous 
results that ultimately did not serve our national interest.
    Let me also be very clear about what the hearing is not. 
This hearing is not intended to be a discussion of any 
immediate, specific U.S. policy plans relating to concerns 
about a terrorist presence in Somalia. Not only is such a 
discussion clearly inappropriate in this open hearing, but in 
addition, such a discussion would not be able to answer 
fundamental questions about how to craft a sound policy, how to 
ensure that 10 years from now we are not as concerned about the 
very same types of threats in Somalia perhaps coming from 
different sources or different individuals that are of great 
concern today.
    This hearing, on the other hand, is focused on the big 
picture and the long term.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    I want to thank all of the witnesses for being here today, and to 
extend my thanks to Senator Frist, the former Chairman and current 
ranking member of this subcommittee. In both roles, he has been an 
excellent partner and has shown genuine leadership on African issues, 
and I am grateful that we continue to work together.
    Today's hearing is the first in what I hope will be a series of 
hearings conducted over the course of the year prompted by the current 
campaign against terrorism. In the wake of the attacks of September 11, 
the President was right to make plain that the United States will not 
distinguish between the terrorists behind the attacks and those who 
harbor them. But state sponsors are only part of the problem. The 
absence of a functioning state is another.
    All of the hearings in the series will share two primary aims. 
First, the subcommittee hopes to examine the characteristics of some of 
Africa's weakest states--manifestations of lawlessness such as piracy, 
illicit air transport networks, and trafficking in arms, drugs, 
gemstones, and people--that can make the region attractive to 
terrorists and other international criminals. Second, the subcommittee 
seeks to identify long-term policy options for changing the context in 
these states such that they are no longer as appealing to criminal 
opportunists. Somalia is the first case the subcommittee will take up 
this year. This hearing asks the question--what are the prospects and 
options for a coherent, long-term Somalia policy that aims to 
strengthen state capacity and curtail opportunities for terrorists and 
other international criminals within Somalia's borders?
    And throughout the year, I want to raise a follow-up--how do we 
strengthen the state responsibly, when all too often state capacity is 
used not to track the behavior of criminals, but rather the behavior of 
political opponents? In other words, how can we strengthen the law 
enforcement capacity of weak states and avoid the mistakes of the Cold 
War, when, in the name of resisting and containing Communism, this 
country assisted some truly appalling regimes in Africa--governments 
that pursued policies antithetical to our national values, leading to 
disastrous results that ultimately did not serve our national interest.
    Let me be very clear about what this hearing is not. This hearing 
is not intended to be a discussion of any immediate, specific U.S. 
policy plans relating to concerns about a terrorist presence in 
Somalia. Not only is such a discussion clearly inappropriate in this 
open hearing, but in addition, such a discussion would not be able to 
answer fundamental questions about how to craft sound policy; how to 
ensure that ten years from now, we are not as concerned about the very 
same types of threats in Somalia, perhaps coming from different sources 
or different individuals, that are of great concern today. This hearing 
is focused on the big picture and the long term.

    Senator Feingold. With that, Senator Frist, do you have any 
opening remarks?
    Senator Frist. Thank you, Mr. Chairman. I will be very, 
very brief, but I would like to thank you for holding this 
important hearing, and thank you for your strong, bipartisan 
leadership on this important subcommittee of our Foreign 
Relations Committee. It is truly a pleasure to be able to work 
on a daily basis with my good friend Senator Feingold.
    I would also like to welcome our witnesses on both panels 
today to the Foreign Relations Committee, to an important 
hearing, ``Somalia: U.S. Policy Options.'' I know we will hear 
very thoughtful policy analyses and options from each of our 
witnesses, again looking, as the chairman just said, 
predominantly at the big picture.
    I am interested in the particular role of Somalia in U.S.-
Africa relations. I had the opportunity over the last several 
weeks to travel to the Sudan, to Kenya, to Tanzania, and to 
Uganda, and as I traveled to these countries, knowing this 
hearing would come forward, I had very specific questions to 
both the leaders and the citizens of those various countries.
    Somalia has not had a national government since January 
1991. In many ways, it remains a fractured society governed by 
armed clans that seem to be ever-shifting. Of course, we cannot 
forget that 18 American Rangers lost their lives in what began 
as a mission to save Somalis from starvation. I think we are 
all concerned that Somalia's chaos has the potential to 
destabilize other parts of Africa and continues to cause 
suffering among the Somali people themselves, so I am very 
interested in hearing each of your views on how the United 
States can address this big picture situation in Somalia, and 
in particular your thoughts on how Somalia could potentially 
serve as a haven or a base of operations for terrorists.
    I also look forward to hearing your thoughts on how we, as 
legislators, can assist the administration in identifying and 
engaging with and supporting any legitimate authorities in 
Somalia, both political and economic. I am also interested in 
how we might be able to assist the administration in developing 
our capabilities to gather information intelligence in Somalia 
to further our ability in our global war against terrorism. 
Finally, I am interested in hearing your views on how the chaos 
in Somalia affects other countries, the countries I have 
traveled to, to Kenya, to Ethiopia, to other nations of the 
Horn of Africa and how we can cooperate with those nations to 
bring a measure of peace to Somalia.
    The point of this hearing, as the chairman said, to get a 
better understanding of how we can address the chaos in Somalia 
and some understanding of Somalia's problems, as well as the 
United States' own interest there, and so I thank all of our 
witnesses. It is a pleasure to be able to participate in this 
hearing today.
    Senator Feingold. Thank you very much, Senator Frist. We 
can now proceed with our first panel. We are fortunate to have 
Assistant Secretary of State for African Affairs, Walter 
Kansteiner back before this committee. Mr. Secretary, I 
appreciated your time. We have already worked together quite a 
few times since you started in this position, and I appreciate 
your time and your willingness to be here, and I look forward 
to your testimony. Please proceed.

STATEMENT OF HON. WALTER H. KANSTEINER, ASSISTANT SECRETARY OF 
 STATE FOR AFRICAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Kansteiner. Thank you, Mr. Chairman. Chairman Feingold, 
Senator Frist, I appreciate your invitation to come to testify 
on weak states. It is a topic that we would normally want to 
focus on in the African Bureau, but post September 11 it is 
absolutely imperative that we do so. Some of these weak states 
in fact are hospitable to terrorist organizations, and so I 
think it is both timely and very appropriate that we all look 
at these issues and discuss them.
    Leo Tolstoy wrote in his great book, ``Anna Karenina,'' 
that ``all happy families resemble one another; every unhappy 
family is unhappy in its own way.'' Successful states, of 
course, follow the same rule, as do unsuccessful states. The 
successful ones resemble each other because they have all found 
ways to function as polities. They all have cohesive national 
interests. They have things that bind them together. 
Unsuccessful states, however, fail as polities for a wide 
variety of reasons. Some so-called failed states have been torn 
asunder by civil war, others by external aggression. Some have 
foundered on unresolved conflicts based on clan or ethnicity 
and, of course, in Africa we particularly see that. All have 
potential for destabilizing their neighbors, as Senator Frist 
just alluded to.
    I think we would all agree that it is far easier to prevent 
failure than to cope with its consequences. Hence the Bush 
administration has set out five priorities in its policy toward 
Africa. You all have heardthese, but I will quickly go over 
them briefly. Democracy-building and a respect for the rule of 
law are imperative. A second area is increasing trade and 
investment, giving the economies of Africa a chance. A third 
area is attacking HIV/AIDS; a fourth is protecting the 
environment; and fifth is stopping the wars by conflict 
resolution.
    Unfortunately, some African States have suffered so much 
that these five priorities really do not fit, and we are here 
today to look at one such country, Somalia. Quite frankly, 
Somalia has not been on the U.S. Goverment's radar screen since 
really about 1994 or 1995. In the meantime, there has been 
civil war, clan conflict, and poverty of unbelievable levels. 
All have turned Somalia into a failed state.
    There are three principal factions today, none of which are 
recognized by the U.S. Government, that hold sway in separate 
parts of the country. In addition, numerous warlords continue 
to vie for dominance at the local level. Hundreds of thousands 
of Somalis live as refugees in neighboring countries, and many 
others are internally displaced. The economy is underdeveloped, 
and severe drought affects the pastoral and agricultural base.
    Unfortunately, one of the key exports--that is, livestock--
is banned from both Saudi Arabia and Yemen, the two biggest 
export markets for Somalia's on-the-hoof goats, sheep, and 
cattle.
    There is little infrastructure left in Somalia, and even 
less in the way of civil services such as schools. Where there 
should be a nation-state, there is a vacuum often filled by 
warlords.
    Another actor that is entering this vacuum is al-Ittihad 
al-Islami, or, as we all call it, AIAI, a Somali organization 
which is dedicated to creating a radical Islamic State. It has 
been very clever in its ways of winning over or trying to win 
over the civil population, principally by providing educational 
and other services normally associated with government. AIAI 
clearly has connections to other terrorist organizations, and 
it is very disturbing to see AIAI gain a foothold in Somalia. 
In September, President Bush's Executive order blocked the 
property of and prohibited transactions with terrorist groups, 
and AIAI was on that list.
    The United States has three basic goals right now toward 
Somalia, and which one could define that as short, mid, and 
long-term. The short-term goal of course is to remove the 
terrorist threat that might or might not exist in Somalia. 
Terrorist cells, we think, do have an ability to operate there, 
and it is extremely worrisome.
    A mid-range goal, but one we are starting to work on now, 
is looking at how Somalia threatens the region and the 
neighborhood, and actions that might or might not be taken in 
Somalia would have impact on the region, so we have to keep 
that in mind as well.
    The third area, of course, is really what the chairman was 
looking for, I think, in this hearing today, and that is long-
term challenges and long-term governance issues. Where is 
Somalia going to be in 4, 5, 6, 10 years from now?
    So I would like to spend a little bit of time outlining 
both bilaterally and multilaterally that last goal, the longer-
term goal of how do we take this non-state this failed or 
collapsed country, and make it a member of the international 
community?
    At the bilateral level, we are providing some assistance to 
the Somali people to mitigate the impact of and prevent future 
disasters through infrastructure development. USAID's Office of 
Foreign Disaster Assistance, the OFDA, is working to 
rehabilitate Somalia's war-ravaged potable water system, 
rebuild its health care facilities, and improve cargo ports and 
airports.
    In addition, we are working with Somalis through CARE to 
create civil society organizations and encourage the further 
development of those already in existence. I think the second 
panel's participants will probably outline some of those 
projects in better detail than can I. USAID's budget for 
Somalia in fiscal year 2001 was about $18 million, to which we 
could add another $4 million for refugees' resettlement in 
Somaliland.
    While these efforts are very important, there are 
multilateral initiatives in a way that I think also bode well 
for the future of the country. The Government of Djibouti, a 
neighbor under the auspices of IGAD, has shepherded the so-
called Arta process. In July of 2000, conference leaders 
announced the formation of a 3-year TNG, Transitional National 
Government, with a 245-seat parliament. This TNG was intended 
to govern all of Somalia but, in the tradition of a truly 
failed state, that sovereignty is confined primarily to 
Mogadishu itself.
    Opposition from local warlords continues to hamper the 
TNG's ability to control areas outside of Mogadishu and small 
parts of the Somali coast land. The TNG is working together 
with some Somali factions attempting to feel their way through 
what this country might eventually look like, but so far they 
have crafted no real working arrangements with either those in 
Puntland or Somaliland.
    Finally, the TNG has not yet purged itself of ties to AIAI. 
This is obviously extremely problematic for us, and is a 
central component to our counterterrorism concerns.
    Also, late last year, in another regional bid to help 
Somalia find its feet, President Moi began a new initiative to 
bring various Somali factions together. Some of the main 
warlords were invited, Somalia's neighbors came together, and 
under the name of national reconciliation, tried to pursue some 
kind of agreement.
    This initiative is now officially part of the IGAD process, 
and all the countries in the region are supportive, including 
Ethiopia and others. The U.S. Government has begun a process of 
our own, too, marshalling ideas and resources to confront 
Somalia's long-term governance channels.
    I might back up for just a second and say that we fully 
support both the Djibouti effort and the Kenyan effort through 
IGAD. In fact, there is going to be a meeting shortly under the 
auspices of the Kenya chair that will hopefully pick a date and 
try to convene an all-parties Congress to bring the Somali 
factions together, and we in fact are quite supportive of that 
effort, but internally we have created a subgroup of the Policy 
Coordinating Committee, the PCC structure.
    In fact, it met for the first time this week, and it is to 
discuss topics such as working with Gulf States to lift the ban 
on livestock, developing alternatives to schools financed by 
AIAI, creating new financial institutions to replace those such 
as Al-Barakaat, which was the bank closed down, and generally 
improve and support the Somali civil society.
    Mr. Chairman, Somalia did not become a failed state in a 
day, and solving the governance problems that make Somalia a 
potential home for terrorists will not happen overnight. We 
have made a start. I am cautiously optimistic that the United 
States, Somalia's neighbors and the international community can 
make a significant contribution to help Somalia toward a better 
future for itself and for the neighborhood.
    Thank you very much.
    [The prepared statement of Mr. Kansteiner follows:]

Prepared Statement of Hon. Walter H. Kansteiner, Assistant Secretary of 
                       State for African Affairs

``weak states and terrorism in africa: u.s. policy options in somalia''
    Chairman Feingold, Members of the Committee, thank you for inviting 
me to testify today on an issue that the tragic events of September 11, 
2001 thrust into bold relief: the characteristics of weak states that 
make them attractive to terrorists and international criminals.
    Leo Tolstoy did not have successful and unsuccessful states in mind 
when he wrote, in Anna Karenina, that ``all happy families resemble one 
another; every unhappy family is unhappy in its own way.'' 
Nevertheless, his words apply to our discussion today. For all their 
differences, successful states resemble each other because they all 
have found ways to function as polities; they have cohesive national 
identities and social compacts that bind them together. Unsuccessful 
states, however, fail as polities for a wide variety of reasons. Some 
so-called ``failed states'' have been torn asunder by civil war, others 
by external aggression. Some have foundered on unresolved conflicts 
based on clan or ethnicity; drought and grinding poverty have claimed 
still more. All have potential for destabilizing their neighbors.
    Africa is far from being immune to the illness of nation-state 
failure. Recognizing that fact, and being aware that it is far easier 
to prevent failure than to cope with its consequences, the State 
Department has adopted five goals that guide policy efforts to confront 
the conditions leading to nation-state failure in Africa.

3  <bullet> Increase democracy, good governance, and respect for the 
        rule of law.

  <bullet> Combat the spread of HIV/AIDS and other infectious diseases 
        that threaten to cost Africa a generation of its most 
        productive citizens.

  <bullet> Expand United States trade and investment with Africa to 
        spur economic development and improve the well being of 
        Africans.

  <bullet> Conserve Africa's environment because people and the 
        institutions they create to govern themselves cannot prosper 
        when the air is not fit to breathe, water is unavailable, and 
        forests and farmlands have turned to dust.

  <bullet> End Africa's wars. Doing so is an absolute necessity, and 
        you really can't pursue the other four policy goals without it.

    Regrettably, some African states have suffered so much for so long 
that they cannot be helped by a prevention strategy of the type I've 
outlined above. Like Tolstoy's unhappy families, these countries' 
unique problems must be addressed individually.
    Today, Mr. Chairman, you and your Subcommittee are focusing on one 
such country, Somalia, a place to which, quite frankly, the United 
States has not paid a great deal of policy-level attention since 1994. 
Civil war, external intervention, clan conflict and poverty have 
combined to turn Somalia into a ``failed state.'' Somalia has no 
central government. Three principal factions (none of which is 
recognized by the United States as Somalia's legitimate government) 
hold sway in separate parts of the country. In addition, numerous 
warlords continue to vie for dominance at the local level. Hundreds of 
thousands of Somalis live as refugees in neighboring countries, and 
many others are internally displaced. The economy is underdeveloped, 
with drought seriously affecting the country's pastoral and 
agricultural base. Somalia's primary sources of income are foreign 
assistance and remittance income from overseas. One of its principal 
exports--livestock--is banned from what should be Somalia's major 
regional market. There is little infrastructure, and even less in the 
way of civil services such as schools. Where there should be a nation' 
state, there is a vacuum filled by warlords. What better place for the 
seeds of international terrorism and lawlessness to take root?
    Al-Ittihad al-Islami, a Somali organization dedicated to creating a 
radical Islamist state in Somalia, has filled the vacuum in some parts 
of Somalia by opening its own schools and providing other services 
normally associated with government. We consider that development 
profoundly disturbing because al-Ittihad has conducted terrorist 
operations in neighboring Ethiopia and was named in the President's 
September 23, 2001 executive order blocking property of and prohibiting 
transactions with terrorist groups.
    The United States has three policy goals related to Somalia:

  <bullet> removing the terrorist threat extant in Somalia and ensuring 
        against Somalia's use as a terrorist base;

  <bullet> preventing developments in Somalia from threatening regional 
        peace and stability; and

  <bullet> overcoming the long-term governance challenges that 
        terrorists exploit to make Somalia a base.

    In accordance with your request that my testimony focus on long-
term issues, I would like to spend a moment outlining several steps 
that already are in motion, both bilaterally and multilaterally, to 
address the last goal, overcoming the governance challenges Somalia 
faces. Then I will describe an effort that the USG has just begun to 
identify and develop additional ways to overcome those challenges and 
thereby prevent Somalia becoming a base for international terrorism.
    At the bilateral level, we are providing some assistance to the 
Somali people to mitigate the impact of and prevent future disasters 
through infrastructure development. USAID's Office of Foreign Disaster 
Assistance (OFDA) is working to rehabilitate Somalia's war-ravaged 
potable water system, rebuild its primary health care facilities, and 
improve cargo ports and airports. In addition, we are working with 
Somalis through CARE to create civil society organizations, and 
encourage the further development of those already in existence. In 
this way, we hope to strengthen the governance and management capacity 
of Somali groups and communities, thereby creating a grass-roots demand 
for good government.
    These initiatives are modest; USAID's entire budget for Somalia 
(including a substantial sum for food-aid) was $17.9 million in FY 
2001, to which we could add $4 million allocated for refugee 
resettlement to Somaliland. These are, however, vital; if al-Ittihad is 
the only source of services people need for their survival, it--and not 
a legitimate, terrorist-free government--will gain their allegiance. 
But while these small, vital United States' funded programs provide a 
foundation upon which to build, they do not tackle directly the core 
problem facing Somalia: developing a polity that can command the 
respect and voluntary allegiance of all the Somali people.
    Tackling that problem, of course, is something that the Somali 
people themselves must want to do if it is to be accomplished 
successfully. If the United States and the international community want 
good governance for Somalia more than the Somalis do themselves, the 
effort is doomed to fail. We saw this situation in 1993 to 1994, when 
peace agreements among the principal warlords that the United States 
had brokered along with Ethiopia and Kenya soon fell apart. Only then 
did we close our mission and decide to wait until the Somalis were 
ready for another effort. Assuming that the Somali people themselves 
want peace and reconciliation, however, there are multilateral 
initiatives underway that can help. They also come at a good time, 
since the Somali people in general have so far refused to support the 
political program of al-Ittihad, despite the services and funding it 
provides.
    The government of Djibouti, for example, has shepherded, under the 
auspices of the Intergovernmental Authority for Development (IGAD), the 
so-called Arta process. This process began in May 2000, when Djibouti 
convened a Somalia reconciliation conference attended by over 2000 
delegates. On July 16, 2000, conference leaders announced the formation 
of a three-year Transitional National Government (TNG) with a 245-seat 
Transitional National Assembly intended to govern all of Somalia. Thus 
far, however, the TNG has not succeeded in overcoming opposition from 
local warlords to expanding its scope of control significantly beyond 
several parts of Mogadishu and a small portion of the Somali coastline. 
Nor has the TNG crafted working arrangements with other principal 
Somali factions, including Puntland State and the self-styled 
``Republic of Somaliland.'' Finally, the TNG has not yet purged itself 
of ties to al-Ittihad that are problematic from a counterterrorism 
perspective. Nevertheless, the United States stands ready to work with 
Djibouti in the Arta process should all the principal Somali factions 
choose to use that vehicle to accomplish national reconciliation.
    Late last year, Kenyan President Moi began a new initiative to 
bring the Somali factions, some of the main warlords, and Somalia's 
neighbors together to pursue Somali national reconciliation. That 
effort was brought under IGAD auspices at the January, 2002 IGAD summit 
in Khartoum. There, Ethiopia agreed to participate in the Kenya-led 
initiative. This is a particularly hopeful development because one of 
the main warlord groups resisting the reconciliation process, the 
Somali Reconciliation and Restoration Council (SRRC), has close ties to 
Ethiopia. The United States attended the IGAD summit as an observer. We 
have pledged our cooperation to the governments of Kenya and Ethiopia 
in this new effort to help bring peace to Somalia.
    Our own government has begun the process of marshalling ideas and 
resources to confront Somalia's long-term governance challenges. A sub-
group of the Policy Coordinating Committee for Africa created 
specifically to examine this question met for the first time yesterday 
(February 5). It discussed topics such as working with Gulf states to 
lift the ban on importing livestock from Somalia, developing 
alternatives to schools financed by al-Ittihad, creating new financial 
institutions to replace those, such as Al-Barakaat, that are tainted 
with connections to terrorism, and increasing support for Somali civil 
society.
    I also wish to take this opportunity to support a position often 
made by Secretary Powell in his discussions with Congress. Precisely 
because the factors that cause states to become weak or fail vary from 
state to state, it is crucial to know which factors are in play in 
order to address them. Knowing such nuances from afar is difficult, and 
that means we have to have the right people in the right places--which 
means having the resources to put those people in place and sustain 
them. We appreciate the steps being made to meet this need, and I look 
forward to working with you to ensure that as our activities in 
relation to Somalia and other weak states develop, we are able to meet 
the demands imposed.
    Mr. Chairman, Somalia did not become a ``failed state'' in a day. 
Similarly, solving the governance problems that make Somalia an 
attractive potential home for terrorists will not happen overnight. We 
have made a start. I am cautiously optimistic that the United States, 
Somalia's neighbors and the international community can make a 
significant contribution to helping the Somali people regain functional 
government, and that the conditions that make Somalia attractive to 
terrorists can be overcome. Thank you, Mr. Chairman.

    Senator Feingold. Thank you, Mr. Secretary. Now we will 
start 7-minute rounds of questions for you.
    Mr. Secretary, how can the United States avoid a situation 
in which our policy simply responds to various factions within 
Somalia who in effect smear their opponents with charges of 
links to al-Qaeda or other international terrorist groups?
    These charges can obviously be employed in entirely self-
interested ways that have nothing to do with combating global 
terrorism, and so I am curious to know what steps can the 
United States take to avoid being used in this fashion and 
thereby be drawn into Somalia's internal divisions, rather than 
helping to achieve what you have obviously indicated we are 
trying to achieve, which is bring stability to the country.
    Mr. Kansteiner. This is a daily problem, and it is on two 
levels we have to deal with it. One, it does not help the 
Kenyan initiative or the Djibouti initiative to bring these 
factions together when they are slandering each other all the 
time. It also has another very practical problem in the sense 
that they are constantly trying to pass us intelligence or 
information they claim is intelligence, so it makes the jobs of 
my colleagues in some of the intelligence agencies very hard; 
they must figure out what is disinformation--just slandering 
their opponent--and what is real, because sometimes the 
information does have some authenticity to it. So it makes it 
very tough for the inteligencel community to sort it out.
    Senator Feingold. Obviously, it is a dilemma, and I look 
forward to hearing how you are going to try to resolve it. I 
know, as you suggest, it is a day-to-day problem, and you have 
already sort of suggested that this is not necessarily an 
impossible situation, but are Ethiopian and Kenyan interests in 
Somalia necessarily contradictory? What are the real prospects 
for a coordinated policy? You have indicated that there is some 
participation of all of the interested countries in some of the 
talks, but how realistic is that?
    Mr. Kansteiner. I am more optimistic today than I was in 
early December. I was in the region mid-December, actually. At 
that time it looked as if Kenya and Ethiopia, the largest 
states in the neighborhood that have real, direct frontline 
interests, although clearly Djibouti and Sudan and others do, 
too, were seeing the situation a little bit differently.
    I think they have overcome some of that misunderstanding 
and misperception, and I think there is some genuine 
coordination there now. I think President Meles of Ethiopia has 
clearly signaled to President Moi that he is willing and eager 
to assist him in sharing this process. I think there is some 
pretty good coordination now.
    Senator Feingold. I understand in part in that Somalia al-
Ittihad is providing social services to communities through 
Islamic schools, health care centers, and as we all know, this 
is a strategy that terrorist groups have applied quite 
successfully in the Middle East.
    How can the United States and the international community 
work to ensure that al-Ittihad does not become perceived as the 
sole entity that is interested in the welfare of Somalis in the 
areas where it operates? It would seem that what is called for 
is some kind of a dual-track strategy of international 
assistance and pressure on alternative local authorities to 
take responsibility for the welfare of their people. What is 
your view?
    Mr. Kansteiner. You just nailed it. In fact, it is dual-
track, and the folks in the second panel I think can discuss 
some of the civil society-building they are doing. We are 
clearly and eagerly wanting to fund that, but we cannot let 
AIAI be the sole providers of health care, schools, and other 
basic services that government, and particularly local 
government, often provide.
    So the NGO community and international organizations do 
have to get in there and help. At the same time, at some point 
a governing institution or a government is going to have to 
step up and start doing this themselves, so I think it is a 
dual track. We get the private NGO's in there now so AIAI does 
not have the full run of the field, and at the same time we 
start building those governing institutions to take this thing 
on themselves.
    Senator Feingold. Very good. Back to Ethiopia. Obviously, 
Ethiopia has legitimate security interests to pursue vis-a-vis 
Somalia and al-Ittihad, but the Ethiopian Government also has a 
history of repressing dissent, and I am concerned about a 
scenario in which the United States will acquiesce to internal 
repression in Ethiopia in the name of a global campaign against 
terrorism.
    Do you think the State Department has enough information to 
be able to distinguish between legitimate and opportunistic 
claims of the Ethiopian Government regarding security threats, 
and is there any way for the United States to reach out to some 
of the dissident elements in Ethiopian society with no actual 
terrorist agenda to clarify that it is not our intention to 
deny them their political rights?
    Mr. Kansteiner. As you alluded to, Mr. Chairman, the 
longstanding rivalry that has existed between Ethiopia and 
Somalia is something we are very cognizant of. At the same 
time, Ethiopia is an active and willing partner in the war on 
terrorism. We do have to recognize the historical interests 
that exist there and at the same time measure those against our 
own immediate and mid-term interests.
    The internal Ethiopian situation is one where we can 
constantly do some work, and prod and pull and push. As 
uncomfortable as it is sometimes, I think we need to do it.
    Senator Feingold. That reminds me of the answer of the 
Secretary of State yesterday to my question in a broader 
context about the use of the human rights report, that it is 
not always going to be comfortable, but it has to continue, 
even in the post September 11 context.
    Do you know of any new financial mechanisms that have taken 
over the important role that Al-Barakaat once played in 
transferring foreign remittances back into Somalia? You alluded 
to this. Do any of these new financial mechanisms, to the 
extent they are springing up out of necessity, provide a 
similar platform for terrorist financing in the region?
    Mr. Kansteiner. We are worried about that. There are other 
financial institutions that provide the same services as Al-
Barakaat, especially in repatriating moneys, but also new ones 
that are coming up. The question is, are they just fronts for 
the old Al-Barakaat? If so, we have to be pretty vigilant on 
that. There are plenty of financial institutions that now can 
get money from the United States and Europe back into 
Mogadishu, so that repatriation is not a great problem. The 
real problem is are these new ones problematic in the terms of, 
control and use by terrorist organizations, and we are watching 
it.
    Senator Feingold. Thank you. Senator Frist.
    Senator Frist. Thank you, Mr. Chairman.
    Secretary Kansteiner, Somalia is often described as a 
collapsed or a failed state. Expand a little bit on your 
thoughts on how we can identify and engage with legitimate 
authorities in Somalia.
    Mr. Kansteiner. We engage with the three primary governing 
institutions, as we call them, because we do not officially 
recognize any of them, the TNG, the government in Puntland, and 
the government in Somaliland. We do have interaction with them, 
we talk to them, we pose questions to them, and we expect 
answers from them, and answers are forthcoming. So there is a 
diplomatic dialog, if you will, as unofficial as it is, so we 
are engaged with them.
    We are also getting better capabilities to reach out to 
others. We do not have a presence in Mogadishu. We do not have 
a permanent U.S. Embassy in Mogadishu. We do have folks that 
base primarily in our Nairobi embassy in Kenya that go into 
Somalia, and they are, as we call them, Somali-watchers. They 
are often going up to Somalia where they meet and test and 
listen and gather information and intelligence, so we are 
learning.
    Senator Frist. On the Transitional National Government, as 
I listen to people and just some of the observers who are 
observing and participating at a certain level, you hear of 
this domination, or potential domination by Islamic 
fundamentalist groups, members of AIAI security forces being 
integrated in certain ways into the new government security 
forces. I know the TNG repeatedly denies any links to these 
terrorist organizations, and have repeatedly said that they 
will cooperate with the United States. Could you comment from 
your perspective on the level of cooperation to date?
    Mr. Kansteiner. Sure. In this open hearing I would say that 
there is some cooperation. At the same time, there is analysis 
and research that would suggest that AIAI and the TNG do have 
some kind of relationship. There is interaction there. We are 
trying to get a handle on the level and extent of that 
relationship. But there has been some responsiveness from the 
TNG on some counterterrorist questions.
    Senator Frist. In your testimony, you mentioned warring 
factions. Are we far enough along to have criteria, or fairly 
clear criteria as to what we can use to identify authorities as 
legitimate or not?
    Mr. Kansteiner. In a failed state context what you do not 
necessarily want to fall into the trap of equating legitimacy 
with how many AK-47's a faction controls. You do not want to 
see legitimacy bestowed on simply those that have military 
power, but at the same time, security is one of the aspects of 
being an authentic governing authority. I mean, if you cannot 
provide security to your own government or your own people, 
then are you really legitimate?
    So in this failed state environment it is, I think, a 
particularly tricky one. I think you do have to look at some 
kind of broad measure of what kind of support does this 
supposed government, or supposed warlord group actually get 
from the local populations, and it is pretty tough to measure.
    Senator Frist. Thank you, Mr. Chairman.
    Senator Feingold. Mr. Secretary, what efforts might be 
included in efforts to bolster the Somalia economy, and how can 
this be structured? The formal structures are nonexistent, or 
extremely weak.
    Mr. Kansteiner. I think the formal financial structures are 
going to remain weak for sometime, and so I think what we are 
going to have to do is look to project development. That is, 
you are going to have to look to the international NGO 
community to get in there and assist in building some kind of 
sustainable development. The agricultural base is there. There 
is a tradition of livestock export. There are parts of Somalia 
that have superb fruit production. It used to be a huge banana 
exporter. There is agricultural potential in Somalia.
    Now, they have had a series of droughts that do not help, 
but it is still, or it could still be, a viable, agriculturally 
based, economy.
    Senator Feingold. Have any of our allies or any other 
members of the donor community signaled any desire to engage 
more seriously in a comprehensive political or development 
strategy for Somalia?
    Mr. Kansteiner. Probably the Italians have been the most 
aggressive. The Italians in a low-key manner, have asked about 
building a Friends of Somalia group, or something like that. We 
are quite frankly all ears. We are ready to listen to anything.
    Senator Feingold. Are we in a position to sort of respond 
to them and indicate we are going to help them put that 
together?
    Mr. Kansteiner. Yes. In fact, we have, and how it is done 
informally, or if it is done through the G-8, or if it is done 
through a subset of the United Nations, we have to wait and see 
how they want to structure it. But if the goals are what we 
think they are, that is, they really want to see this long-term 
development, mid and long-term development of the country, then 
certainly philosophically we are all for it.
    Senator Feingold. I think you have already answered this in 
part in answer to one of Senator Frist's questions, but given 
the relative stability in Somaliland and the indicators 
suggesting that the authorities there are interested in 
improving the conditions of the people, does it not make sense 
for the United States to build some relationship with their 
authorities, and you were talking about this generally, but 
could you say a bit more about the status of our relationship 
to date?
    Mr. Kansteiner. It is probably dangerous to make judgments 
on effectiveness of governing institutions in a place like 
Somalia. But Somaliland seems to have a pretty good grasp of 
some of what we would call traditional local government 
services. They probably come closer to providing those services 
than any of the others, and their economy is probably the 
healthiest, so there is not only a temptation, but I think a 
necessity, to at least recognize the successes they have had 
and try to build on those successes.
    Now, the tough part is how we build on the successes and 
whether that means formal recognition of them as a sovereign 
state. Then we come back into the problem of the OAU, or the 
tenets of boundaries and borders, and so we have to be very 
careful there.
    Senator Feingold. The most recent International Chamber of 
Commerce piracy report notes that piracy is on the increase in 
Africa, and press reports indicate piracy is a problem off the 
coast of Somalia. What can you tell the subcommittee about the 
nature of Somalia's piracy problem?
    Mr. Kansteiner. There has been quite frankly a long 
tradition of piracy off the coast of Somalia, and it is 
probably not that much worse today than it generally has been. 
What you do see is added incentive, if you will, for pirates to 
operate, because they know there is no coastal patrol. There 
has not been a whole lot of coastal patrol in the past anyway, 
but now there is absolutely none, with the exception of some of 
the international maritime interdiction that is, in fact, going 
on in terms of the war on terrorism; I think one of the very 
healthy byproducts of that is maybe we will see a reduction in 
the piracy off the coast.
    Senator Feingold. Some of the written testimony received 
for this hearing mentions Somalia as a transshipment point. 
What do we know about this issue? What kinds of items are being 
transshipped through Somalia, by what actors, and for what 
purpose?
    Mr. Kansteiner. There are a couple of areas where we have 
seen Somalia as a transshipment point. One is financial. It is 
a transshipment point for money, and in fact Al-Barakaat was 
very much proof of that. We also see Somalia as a transshipment 
point for weapons, and it has been, quite frankly, for a long, 
long time. I do not think it is a huge increase, but there is 
some increase, and so I would say those two would be the most 
problematic.
    Of course, the other area that it is a transshipment point 
is people in the sense of terrorist cells do have the 
capability to move in and out, and we have seen it.
    Senator Feingold. By what actors, in terms of these?
    Mr. Kansteiner. You see it, we have seen it from--al-Qaeda 
certainly used it as a money transshipment point, but then also 
some of the small arms dealers that operate all through Africa. 
If they need to stow or stash weapons, certainly no flight 
plans are necessary if they are flying the arms in and out. 
There is no air traffic control. So if they need that kind of 
shelter, you are seeing it in some of the small arms dealers.
    Senator Feingold. Thank you. The last human rights report 
from the State Department noted some cases of trafficking in 
persons out of Somalia. For example, law enforcement 
authorities in Djibouti have arrested traffickers who were 
attempting to smuggle Somali women to destinations such as 
Lebanon and Syria to work in brothels. There are also some 
reports indicating trafficking in children for forced labor may 
be a serious problem.
    Now, I understand the information here is understandably 
scarce, but could you discuss, based upon your own anecdotal 
observations, the extent to which trafficking in persons poses 
a significant problem in the region, and are the traffickers 
likely to be connected to larger terrorist or criminal 
organizations operating in Somalia?
    Mr. Kansteiner. Mr. Chairman, I will have to check on that, 
I am sorry. If I can take that, that would be great. I have not 
seen a whole lot of reports on that.
    Senator Feingold. That is fine, Mr. Secretary. Senator 
Frist.
    [The following information was subsequently supplied.]

    Mr. Kansteiner. As we have stated in the Human Rights Report, there 
have been indications of trafficking of persons from and through 
Somalia. We have reports that women are taken to Saudi Arabia, the UAE, 
and Italy with the promise of jobs and then are forced into 
prostitution. We have received no specific reports on trafficking in 
children for forced labor although we have heard of fraudulent 
adoptions. Given the poverty and the absence of government in Somalia, 
we would expect Somalia to offer considerable scope for criminal 
elements to profit in the trafficking of persons. However, our 
information on this as all other subjects relating to Somalia is 
attenuated because of the absence of a USG presence.

    Senator Frist. I have no more questions. Thank you, Mr. 
Chairman.
    Senator Feingold. Thank you so much.
    Mr. Kansteiner. Thank you very much.
    Senator Feingold. We have an excellent second panel of 
witnesses with us today, and I would ask those three to come 
up, please. Thanks to each of you for coming.
    Dr. Ken Menkhaus is an associate professor of Political 
Science at Davidson College. His work focuses on the Horn of 
Africa. From 1993 to 1994 he served as Special Political 
Advisor to the United Nations operation in Somalia, and from 
1994 to 1995 he was a visiting civilian professor at the 
Peacekeeping Institute of the United States Army War College.
    In 1998, Dr. Menkhaus served as a Senior Technical Advisor 
to the United Nations Development Office for Somalia and in 
Nairobi. He has conducted extensive fieldwork in Somalia, and 
is the author of over two dozen articles and monographs on 
Somalia and the Horn.
    Ambassador David Shinn is no stranger to this subcommittee, 
having come before us before when he was confirmed to be U.S. 
Ambassador to Ethiopia, where he served from 1996 to 1999. 
Before that time, he served as a Director for East African 
Affairs at the State Department, and as the Department's 
Coordinator for Somalia from 1992 to 1993. He was the U.S. 
Ambassador to Burkina-Faso in the late 1980's, and also served 
in Cameroon, Sudan, Mauritania, Tanzania, and Kenya during his 
Foreign Service career. He is currently an adjunct professor at 
the George Washington University.
    Robert Macpherson is currently director of CARE USA's 
Protection and Security Unit, a role in which he is responsible 
not only for the safety of CARE international staff, but also 
for developing policies and procedures associated with at-risk 
populations such as refugees and internally displaced persons. 
Previously, he worked with CARE's emergency group organizing 
and implementing emergency response activities in humanitarian 
crisis situations.
    Mr. Macpherson is a retired U.S. Marine Corps colonel with 
25 years of experience, including Vietnam, Desert Storm, and 
Somalia. As part of the United Nations Operation Restore Hope 
in Somalia, beginning in late 1992 Mr. Macpherson served as 
Deputy Director for Civil-Military Operations, prioritizing and 
coordinating multinational relief efforts.
    I welcome all of you and look forward to your testimony. We 
will hear from all of you and then proceed to questions, and so 
let us begin with Dr. Menkhaus.

STATEMENT OF DR. KEN MENKHAUS, ASSOCIATE PROFESSOR OF POLITICAL 
            SCIENCE, DAVIDSON COLLEGE, DAVIDSON, NC

    Dr. Menkhaus. Distinguished Senators, ladies and gentlemen, 
good afternoon, and thank you for allowing me to testify, and I 
think I speak on behalf of many in thanking you for putting the 
spotlight on Somalia. With your indulgence, I would like to 
focus on the final section of my written testimony dealing with 
long-term policy recommendations, but I would be very happy to 
answer any questions about my own analysis of the nature of the 
Somali crisis if they should come up.
    If our long-term objective is to render Somalia an 
inhospitable place for regional and global security threats, 
then the goals that should frame our long-term policies on 
Somalia should be clear. They are promotion of national 
reconciliation, building capacity of local and national 
authorities to promote rule of law, policing and good 
governance, promoting economic opportunity and recovery and 
reducing the country's chronic vulnerability to recurring 
economic crises, shaping the political and economic environment 
in Somalia in ways which create incentives for communities to 
cooperate with us and discourage them from association with 
radical movements, and finally, winning the hearts and minds of 
a new generation of Somalis who have known only war and state 
collapse and who are looking for answers to these crises. 
Everything we do in Somalia should be aimed at advancing one or 
more of these goals.
    A number of principles and priorities can help to undergird 
successful long-term strategies in Somalia. One is sustained 
engagement. The United States can no longer afford a policy of 
benign neglect in Somalia. It simply must reengage in the 
country. This includes more visible and active diplomatic 
efforts to communicate with local political actors as well as 
revitalization of nonemergency aid programs. The quality of 
this reengagement will be more important than the quantity.
    Reengagement must also be sustained. Somali communities 
need to be convinced that the United States is interested in 
helping them resolve long-term problems, not just address our 
short-term security concerns. Patience and sustained approaches 
are crucial in the promotion of national reconciliation as 
well. Rushed approaches, as we have seen in the past, to 
reconciliation in Somalia have usually made things worse.
    Second, improved intelligence. The United States shifted 
much of its intelligence assets away from poor, weak states 
like Somalia in the 1990's. Now we are scrambling for 
information and analysis in these zones of the world, where new 
attention to close field-based knowledge and extensive contacts 
with nationals is essential if the United States is to make 
well-informed policies on Somalia. Terrorist networks may be 
dissuaded from operating in Somalia if they know we have many 
friendly eyes and ears in the country.
    Third, a shaping strategy. Somali society is remarkably 
pragmatic. Somalis as a group are not prone to embrace foreign 
ideologies and radical Islamic agendas are considered there to 
be foreign unless they yield tangible benefits. The moment 
those benefits disappear, support for the ideology tends to 
evaporate as well.
    This pragmatic cost-benefit analysis approach to the 
external world can and should be made to work to our advantage 
in minimizing the impact of radical Islam in Somalia. Through 
creative use of the carrots as well as the sticks which we have 
at our disposal, we can shape Somalis' cost-benefit 
calculations in ways that make it worth their while to 
cooperate with us in preventing terrorist activities in their 
country.
    Fourth, expanding economic opportunity. Despite the 
weakness of the local economy, Somalia has exhibited remarkable 
innovation and adaptability in commercial and service sectors. 
Much more of this entrepreneurism would flourish if a few key 
constraints were removed or better managed. The United States 
is in a position to assist in this regard, and would earn much 
goodwill in the country if it did.
    Projects aimed at making the American market more 
accessible for key experts and assisting Somali livestock and 
seafood exports, improving infrastructure and management at key 
ports, or at encouraging American partnerships with Somali 
entrepreneurs are among the many, many possibilities. A robust 
domestic market is itself a tool which could be used to 
catalyze productive opportunities in Somali and integrate the 
country closer into the Western economy.
    Fifth is flexibility in our partnerships. Reengagement in a 
country with no recognized government begs the question of 
reengagement with whom? This nettlesome question creates 
significant problems in the Somali context. After 10 years of 
state collapse in Somalia, the only tenable policy is one based 
on the yardstick of effective administration. The United States 
cannot presume that a functional central state will be revived 
in the near future. Therefore, we must be adept at dealing with 
subnational polities.
    In that regard, the United States must insist that it work 
with any and all authorities which are actually administering a 
region or an area. Political groupings which make no attempt to 
provide basic administration for the people they claim to 
represent should not be recognized. This suggests in my view a 
preference for a building block or regional approach to 
reconstituting a central authority in Somalia, a policy which 
was in place from 1997 to 1999, but which was overtaken by the 
Djibouti initiative to create a central government via national 
conference in the year 2000. Top-down efforts to impose a 
central state on Somalia appear unlikely to succeed.
    Sixth, engagement with the business community. The business 
community in Somalia has emerged as one of the most powerful 
political forces in the country. It has a mixed track record, 
but as a group the business community needs to be engaged with 
the aim of creating informal partners in the war on terrorism. 
They will be especially sensitive to the cost of noncooperation 
with us and to the benefits of working with the United States, 
and are in a better position than most other groups in Somalia 
to monitor and discourage radicalism.
    Seventh, encouragement of coexistence between Ethiopia, 
Arab States, and Somalia. As long as Somalia is the site of a 
proxy war between Ethiopia and the Arab world, national 
reconciliation will be difficult to impossible. Somalia and its 
neighbors have many powerful shared interests in expanding 
regional commerce, reducing armed conflict, and lawlessness in 
working toward a functional political authority in Somalia. The 
United States is in a unique position to press its friends in 
the region to cooperate to this end.
    Eight, sustainability. The United States and its 
international partners must take care not to throw money at 
self-declared regional or national authorities in ways which 
reinforce old, bad political habits in Somalia. For too long, 
the Somali political elite has viewed the state not as an 
administrative body responsible for providing basic services 
for its people, but as a catchment point for external 
assistance to enrich those who are clever and lucky enough to 
control it. Massive levels of foreign aid, combined with little 
accountability during the cold war, led to a bloatable and 
unsustainable Somali State, a castle built on sand. Whatever 
political entity emerges in Somalia must be sustainable mainly 
on the bias of its own tax revenues, or we run the risk of yet 
another collapsed state.
    Nine, assistance to the educational sector. We must also be 
engaged in an effort to win the hearts and minds of the Somali 
people. The educational sector is key in this regard. Investing 
in the rebuilding of Somalia's education sector is not only a 
vital investment in its human resources and hence in economic 
recovery, it is also an important socialization tool, shaping 
the values and world view of a new generation of Somalis who 
have only known war and state collapse.
    Currently, the education sector is dominated by externally 
funded Islamic schools. Most of these are high quality 
institutions playing a legitimate role, not fronts for al-
Ittihad, but if they are the only type of education available, 
the next generation of Somali leaders will have been socialized 
into a world view which could make Somalia a more hospitable 
environment for radical Islam.
    Finally, creativity. In cases of protracted state collapse 
like Somalia, we need to be prepared to think outside the box. 
Specifically, we may need to anticipate and assist both 
unfamiliar processes toward national reconciliation in Somalia 
and an unconventional type of national authority emerging in 
Somalia. Given the resource constraints faced in Somalia, the 
kind of central government which may ultimately arise in the 
country could be a minimalist structure providing only core 
services while subcontracting other responsibilities out either 
to the private sector or to local governments.
    Thank you.
    [The prepared statement of Dr. Menkhaus follows:]

    Prepared Statement of Dr. Ken Menkhaus, Associate Professor of 
                  Political Science, Davidson College

``weak states and terrorism in africa--u.s. policy options in somalia''
    Somalia has now been without a functioning and recognized central 
government for over eleven years. It is the most extreme example of the 
troubling phenomenon of failed states which are especially prevalent in 
contemporary sub-Saharan Africa and which are now commanding our 
attention as possible sites of terrorist activities. The realization 
that failed states like Somalia constitute a security threat is not 
new. By the mid 1990s, government officials, the media, and academic 
analysts devoted considerable attention to the security implications of 
the rash of failed states such as Angola, Rwanda, Bosnia, and 
Afghanistan. At that time, four distinct security issues were linked to 
collapsed states. One concern emphasized traditional security threats--
the dangers of terrorists and transnational criminal elements 
exploiting collapsed states as safe havens where they could operate 
beyond the rule of law. A second cluster of concerns focused on non-
traditional security issues emanating from failed states--the threats 
to global security posed by massive refugee flows, the spread of 
dangerous new diseases, environmental degradation and other by-products 
of protracted chaos. A third worry was regional security--the dangers 
of spillover of anarchy, arms flows, and armed conflict into 
neighboring countries, triggering a domino effect of complex 
emergencies and instability. A fourth and final security preoccupation 
was political and humanitarian. The humanitarian crises provoked by 
failed states produced strong public pressure on administrations to 
intervene, which in turn led to periodic commitments of U.S. forces to 
peace operations in the 1990s. Protecting U.S. forces from harm in 
these ``operations other than war'' became a major security concern in 
itself.
    All four of these sets of security concerns were, and remain, 
entirely legitimate. Yet at the same time that a widespread consensus 
emerged that failed states pose a threat to American security 
interests, the U.S. government--with little dissent from the public--
appeared increasingly disengaged from these crisis zones. How is it 
possible that such a disjoint could exist between analysis alerting us 
to danger and policy response which continued to place these troubled 
parts of the world on the back burner? The answer is in large part that 
our diagnoses of the problem did not produce viable policy 
prescriptions. These failed states, and the crises they produce, 
constitute enormous, frustrating, and complex challenges which are not 
amenable to quick fixes and routinized, incremental responses. In 
short, we have avoided confronting directly the challenge of failed 
states in part because we don't know what to do about them. It has been 
easier to keep our involvement limited to treating the symptoms rather 
than causes of these crises, restricting our role to that of a 
dependable and generous provider of emergency relief. September 11 has 
changed this dynamic. We still face fundamental challenges, 
uncertainty, and risk in zones of state collapse, but failed states 
have been placed squarely on the front-burner of national security 
policy.
     distinguishing between different types of terrorist operating 
                              environments
    Our emerging anti-terrorism strategy is based on the objective of 
depriving terrorist networks a viable base of operations--in the 
vernacular of anti-terrorist analysts, ``draining the swamp.'' An 
important first step in refining and operationalizing this strategy is 
to distinguish between the different types of ``swamplands'' in which 
terrorist networks may operate. I would propose five types of potential 
terrorist operating environments. First are collapsed states such as 
Somalia, where central governments have lost control over most or all 
of the country, leaving large areas of real estate beyond the writ of 
state authority. These governments, if they are functioning at all, 
cannot be expected to police their countries effectively to prevent or 
apprehend terrorists. Second are weak states, or what the journalist 
Thomas Friedman recently termed ``messy states.'' These states feature 
large and functioning central governments, but due to a combination of 
corruption, low pay, ethnic tensions, and economic strains have serious 
deficiencies in their capacity to deliver law and order and other 
essential government services. Large and sprawling urban slums are 
often beyond the control of these governments, and police forces easily 
bribed. A third category consists of ``compromised states.'' These are 
cases where relatively strong and effective governments are constrained 
from taking forceful action against Islamic terrorists or radicals for 
political reasons. The movements in question enjoy a certain amount of 
local support, so that a frontal attack on them makes governments 
vulnerable; the result is an uneasy co-existence and efforts by the 
government to channel the radical movement's energies away from it and 
onto other targets (often, the U.S.). Pakistan, Saudi Arabia, and Egypt 
are among the states which arguably fall into this category. Fourth are 
rogue states, governments which actively sponsor or shelter terrorist 
networks. Finally, there are liberal democracies, including our own; 
terrorists exploit the civil liberties and non-intrusive government 
presence to operate in this setting as well.
    Each of these contexts suggests a distinct set of tactics and 
approaches if they are to be rendered inhospitable environments for 
terrorist cells. Importantly, we must presume that terrorist networks 
have considered the particular advantages and disadvantages of each of 
these political settings and have devised a division of labor to 
exploit the opportunities each setting affords them. It is in the 
context of this division of labor that we should consider the 
particular advantages which collapsed states such as Somalia offer 
terrorists.
          security threats posed by state collapse in somalia
    Typically, collapsed states like Somalia pose a special set of 
security problems related to terrorism. Some of the attractive features 
of collapsed states to terrorist networks include:

  <bullet> Chronic lawlessness, which creates safe havens for 
        transnational terrorists to operate beyond the reach of law 
        enforcement;

  <bullet> Danger and inaccessibility, making it more difficult for 
        Western journalists, relief workers, or government officials to 
        learn about their activities;

  <bullet> Easily co-opted or recruited gunmen;

  <bullet> Weak local authority structures, which can be used as a 
        Trojan horse by radicals to provide cover for their de facto 
        control of an area or become a potential ``Taliban'' type 
        national government providing the terrorists direct support;

  <bullet> Opportunities for profiteering from a range of economic 
        activities, including drug production, drug and gun smuggling, 
        money laundering and counterfeit activities, commerce in high-
        value goods such as diamonds, timber, or even people; and

  <bullet> Extreme levels of poverty, making it relatively easy to 
        secure local clients and purchase temporary cooperation locally 
        even from militias or communities which do not share a 
        terrorist agenda. Profound underdevelopment also provides a 
        backdrop of social frustration and desperation which terrorists 
        can use to their advantage, especially if they are able to link 
        that underdevelopment to the West or to governments with close 
        ties to the West.

    All of these factors are present to some degree in Somalia, and 
hence require careful scrutiny. But Somalia has by many measures not 
yet proved to be as worrisome a security threat as some other states. 
Unlike Afghanistan, Somalia has not produced a Taliban-type radical 
administration openly sponsoring terrorist groups. Unlike, Yemen, 
Somalia is not heavily infiltrated by al-Qaeda. Unlike Colombia, 
Myanmar, and Afghanistan, Somalia has not become a significant producer 
or conduit of drugs. And unlike Congo, Angola, and Sierra Leone, 
Somalia has no valuable natural resources which foreign terrorist and 
criminal elements can export for profit. And despite crushing levels of 
underdevelopment and perceived abandonment by the West, Somali 
communities as a whole are not particularly anti-Western and have not 
proven particularly receptive to radicalism; Islamic extremists have 
not been able to exploit Somali desperation with their prolonged 
economic and political crises to create a broad-based movement. Somalia 
is instructive on this score; by all measures it ought to be a more 
active site of Islamic radicalism than it is.
    One possible explanation is that we have tended to overestimate the 
attractiveness of collapsed states to terrorist networks. What may at 
first glance appear to provide opportunities to terrorist organizations 
could actually constitute problems for them. Many of the same factors 
which plague and jeopardize humanitarian aid operations also conspire 
to produce sub-optimal environments for terrorist operations. Foreign 
terrorists would find it very difficult to operate inside Somalia in 
secret; Somalis are quick to learn about and discuss the activities of 
foreigners, as they often constitute an important economic opportunity. 
Terrorist networks would find themselves vulnerable to extortion, 
threats, and kidnappings. They would find themselves unable to avoid 
being caught up in local clan feuds over their local partners and 
allocation of whatever resources they may have, increasing the odds of 
being reported on to Western authorities. Importantly, in a collapsed 
state such as Somalia any organization or movement is immediately 
visible; there is nowhere to hide in a collapsed state. Terrorists 
networks in Somalia and other collapsed states face the real 
disadvantage of being in an exposed environment. Finally, the very 
absence of a recognized government in Somalia makes it much less 
politically complicated for the U.S. to intervene with military force 
to bomb a terrorist camp or snatch individual suspects by Special 
Forces. Given the experience of the Taliban and al-Qaeda in 
Afghanistan, it seems reasonable to conclude that they will now work 
very hard to avoid presenting themselves as a fixed military target. 
Instead, they will seek to change the playing field from a military 
conflict to a protracted, transnational law enforcement exercise. 
Islamic radical cells will in this sense find weak and/or compromised 
states more attractive bases of operation; there they can use a weak 
state as a form of protection which is not available in a zone of state 
collapse. That does not mean that Somalia and collapsed states like it 
are unattractive to radical Islamists. Instead, it suggests that 
Somalia may come to play a ``niche role'' for terrorists, one which 
exploits aspects of lawlessness while minimizing the vulnerabilities 
terrorist networks are exposed to in Somalia. Specifically, we can 
expect to see Islamic radicals using Somalis as a transshipment zone, 
for short-term movement of money, materiel, and men. Short-term 
operations in Somalia can be done in secret and through any number of 
local interlocutors; for a price, terrorists can and have worked with 
Somali factions or clans which do not share their political agenda but 
which are happy to profit from them. This is a scenario explored in 
more detail below. The key here is that we need to begin to anticipate 
that terrorist networks are learning how to use different types of 
operating environments for different purposes, and that collapsed 
states like Somalia will be less useful to them as a permanent base of 
operations, more attractive for short-term missions. To date, the 
terrorist threat posed by Somalia has been articulated in very general 
and often confusing terms. There are in fact a wide range of potential 
security threats in Somalia related to Islamist radicalism. These need 
to be disaggregated and considered as distinct, though not mutually 
exclusive, possibilities. Each possibility may require a different 
policy response.
     somalia as operational base for non-somali al-qaeda terrorist
    This concern has dominated Western media coverage of Somalia; 
speculation about this threat has made Somalia a leading target in an 
expanded war on terrorism. It is also one of the less plausible 
scenarios. There is at this time no credible evidence that al-Qaeda is 
using Somalia as an operational base--i.e., as a site for training 
camps or bases. Indeed, there is little evidence of non-Somali al-Qaeda 
members having a presence in Somalia today. This was actually a more 
realistic worry prior to 1997, when al-Ittihad held the town of Luuq 
and was active in the coastal settlement of Ras Kiamboni; then, there 
is some evidence to suggest non-Somali al-Qaeda members visited the 
areas. But since al-Ittihad lost Luuq in 1996 and more recently 
abandoned Ras Kiamboni, it operates no discrete bases or camps. As 
stated above, non-Somalis running camps in Somalia would find it 
extremely difficult to keep such an operation secret in Somalia, both 
because Somalis would report them and because they would be easily 
detected by aerial and satellite surveillance now being undertaken in 
the country. They would also present themselves as an easy, fixed 
target for an aerial attack, which presumably they will no longer be 
foolish enough to do.
        somalia as safe haven for non-somali al-qaeda terrorists
    Because Somalia remains a collapsed state with little to no local 
law enforcement capacity, and because of its long, unpatrolled coast 
line, external countries are understandably concerned that it may serve 
as a safe haven for fleeing al-Qaeda members. Those al-Qaeda members 
would not be attempting to build an operational base in Somalia; they 
would only use Somalia to hide undetected, either in crowded urban 
centers or remote rural areas, until they deem it safe to depart. This 
concern has led to patrols and interdictions by U.S. and European naval 
vessels off the Somali coast. This scenario is possible but not 
inevitable, because non-Somali Islamic radicals would be very 
vulnerable to being turned in by Somalis, and presumably know this. 
Still, given the very poor alternatives facing fleeing al-Qaeda 
members, it is conceivable they may try to hide in Somalia, relying on 
local counterparts to shelter them.
    somalia as transshipment or transit site of al-qaeda operations
    Somalia is not an especially hospitable site for a fixed base of 
operations for al-Qaeda, but it is an excellent location for short-term 
transshipment and transit operations by all sorts of transnational 
criminal and terrorist groups. Its natural beach ports and long coast 
allow easy and undetected smuggling of people and materiel which can 
then be moved overland on track roads into Kenya or Ethiopia; its 
innumerable dirt landing strips also allow access by small aircraft. 
Local partners in such short-term operations are easily contracted, for 
the right price, and need not share any ideological affiliation with 
the group in question. Al-Qaeda could very well view Somalia as playing 
this niche role in the future, allowing the movement to move goods and 
people into various parts of East Africa undetected.
             somalia as financial facilitator for al-qaeda
    Somalia's fast-growing telecom and money transfer companies are a 
critical part of the country's growing dependence on remittances from 
its large labor force working abroad. Remittance companies rely on a 
global network of agents to enable diaspora members to transfer money 
to relatives informally and businessmen to place orders in Dubai and 
elsewhere. Given the absence of banks in the country, such informal 
mechanisms to transfer cash is the only option Somalis have. Since 
individuals usually do not have an account with these companies, 
however, hawilaad companies are easily misused by criminal elements 
seeking to move cash without leaving a paper trail. The U.S. 
government's move to freeze the assets of the largest Somali remittance 
and telecom company, al-Barakaat, was partially justified on grounds 
that al-Qaeda was using it to move its funds. Somalia as revenue 
generator for al-Qaeda. Some have charged that several of Somalia's top 
business companies, in sectors such as remittances, import-export, and 
telecommunication, are fronts for al-Qaeda's business empire. This was 
another charge leveled at Al-Barakaat. Businesses may either have 
secured loans from al-Qaeda (in which case the profit-sharing 
arrangements which result generate revenue for al-Qaeda) or are owned 
directly by al-Qaeda and fronted by Somali business partners. There is 
little available evidence to assess this concern. Though the remittance 
sector in particular is profitable, Somalia is an extremely weak 
economy and presumably would not constitute an especially good place 
for returns on investments. To the extent that this threat exists, it 
surely constitutes a minor aspect of the al-Qaeda business portfolio.
   somalia as host for somali organizations associated with al-qaeda
    This is an important distinction to make, as it suggests the 
possibility of a radical Islamic threat inside Somalia without any 
foreign presence necessarily involved. On this score, the Somali 
Islamist group al-Ittihad is the subject of considerable discussion as 
a possible security threat. The extent to which al-Ittihad is 
significantly associated with al-Qaeda is uncertain. Two points are 
clear: al-Ittihad is not simply a local subsidiary of al-Qaeda; and al-
Ittihad has had links of some sort with al-Qaeda. What is difficult to 
determine is the significance of those associations. If links to al-
Qaeda have been superficial or expedient, an analysis based on guilt by 
association runs the risk of misreading al-Ittihad. If those links 
prove to be significant and enduring, then al-Ittihad is clearly a 
major security threat as an organization.
       somali local polities as ``trojan horses'' for al-ittihad
    A corollary to the above scenario (one which presumes al-Ittihad is 
linked to al-Qaeda) is the possibility of al-Ittihad infiltrating and 
indirectly controlling local polities--the ``Turabi strategy.'' It is 
clear in fact that al-Ittihad has been attempting this, though not with 
the level of success some alarmist analyses have presumed. By 
integrating into local administrations and gaining control of key posts 
such as the judiciary, al-Ittihad hopes to build political power and 
control within an ostensibly non-Islamist polity. That way, they avoid 
making themselves visible target. This is Ethiopia's chief worry, and 
the basis of its accusation against the TNG.
     somalia as home to individual somalis affiliated with al-qaeda
    Here a distinction is made between charging al-Ittihad as an 
organization with terrorist links and identifying individuals (probably 
al-Ittihad members) who have dangerous links to al-Qaeda or other 
terrorist networks. This is one of the most likely scenarios, and one 
which presents the most difficult policy challenges to the outside 
world. If these individual Somalis are ``big fish'' in the al-Qaeda 
organization, they will need to be apprehended. Because local 
authorities are so weak, it is unlikely the U.S. can or should rely on 
them.
          somalia as host for al-qaeda-affiliated ``sleepers''
    To date, no Somali has been implicated as a perpetrator of 
terrorist attacks against the West, and Somalis do not appear to have 
been a prominent or numerous group in al-Qaeda forces in Afghanistan. 
Still, it is possible that a small number of Somalis have been trained 
abroad and placed back in Somalia as sleepers. This would be 
exceedingly difficult to monitor. Because there are no external targets 
of any consequence inside Somalia (no embassies exist there at present, 
for instance), any sleeper placed inside Somalia would presumably have 
to travel abroad to carry out a terrorist mission.
                   al-ittihad as a threat to ethiopia
    Evidence of al-Ittihad's links with al-Qaeda and with a global 
agenda of terrorism are weak, but not so its agenda towards Ethiopia. 
It is publicly committed to working toward an Islamic state in Somali-
inhabited areas of Ethiopia, and it has been implicated in two hotel 
bombings in Ethiopia and an assassination attempt against an Ethiopian 
minister in the mid-1990s. Those acts earned it designation as a 
terrorist organization and are justification in Ethiopia's view for 
pursuing and eliminating al-Ittihad from Somalia, even if the 
organization has no links to al-Qaeda. The significance of al-Ittihad's 
terrorist acts inside Ethiopia are a matter of debate. For many, they 
stand as compelling evidence of the threat the organization poses to 
Ethiopia, and justifies the belated U.S. decision to label al-Ittihad a 
terrorist organization. Others argue that the terrorist acts in 
Ethiopia were not carried out by the organization as a whole, but 
rather by one Ethiopian-based wing; that the attacks were more a 
reflection of Somali irredentism than Islamic radical; and that other 
branches of al-Ittihad strongly disagreed with those attacks. Some al-
Ittihad spokesmen in Somalia insist that they are a non-violent 
movement with a focus strictly on Somali politics. Assessing these two 
positions is not easy, as it requires reaching conclusions about the 
intentions and nature of an organization about which little is known. 
On the one hand, it is entirely plausible that al-Ittihad is in fact 
divided over tactics and other matters, and that treating the 
organization as monolithic is an error. On the other hand, it would be 
naive to accept at face value the claims of a nonviolent agenda from an 
organization implicated in terrorist acts. Ethiopia's internal security 
situation is always tenuous, and any movement--foreign or domestic--
which seeks to politicize Islamic identity in a country where half of 
the population is Muslim will be viewed by the Ethiopian government as 
extremely dangerous. At this point, the Ethiopian government has made a 
determination that al-Ittihad poses a threat to its security and it is 
very unlikely to deviate from that view. For Ethiopia, co-existence 
with al-Ittihad in any manner is off the table. That implies a long-
term conflict in the region with the potential to destabilize both 
sides of the border. To the extent that Western (and especially 
American) interests lie in promoting Ethiopian security, the 
possibility of some sort of modus vivendi between the West and al-
Ittihad is also highly unlikely.
              somali diaspora as threat to global security
    Somalia is now a diaspora nation, unbound by fixed geographic 
borders. The country's principal export is its own people, its role in 
the global economy reduced to that of a labor reserve for the Gulf 
states and the West. Estimates of the number of Somalis living abroad 
range from one to two million--perhaps 20% of the total population. The 
diaspora's role has been mainly positive, as a vital source of 
remittances keeping Somalia's failed economy afloat. But in some 
instances individual diaspora members have been attracted to radical 
movements. Somali communities abroad can be mobilized (and in some 
cases coerced) into contributing funds to militias and factions, 
including al-Ittihad. Some Somalis abroad are drawn to Islamic 
movements both in the West (often as an attempt to maintain their 
identity and culture) and in Arab and Islamic states where such 
movements are active. Few Somali diaspora members have been directly 
implicated in radical Islamic groups, but this remains a possible 
security threat to host countries.
           somali lawlessness as threat to regional stability
    Despite the intense media attention given to the threat posed by 
Islamic radicalism in Somalia, the greatest security threat emanating 
from the country continues to be spillover of banditry, gunrunning, 
refugees, and lawlessness into neighboring Ethiopia and Kenya. Ethiopia 
has never fully controlled the Ogaden region, and that has not been 
made easier by a decade of state collapse on the Somali side of the 
border. Kenya's security predicament is palpably worse. The Kenyan 
government has lost control of most of the Somali-inhabited territory 
north of the Tana River; Somali bandits roam across parts of Kenya and 
even into northern Tanzania on cattle raids and carjackings; Somali-
populated refugee camps in Dadaab and Kakuma are sources of chronic 
tensions with host communities, occasionally leading to armed 
incidents; and the Somali-inhabited neighborhood of Eastleigh in 
Nairobi is virtually beyond the control of the Kenyan police, and is a 
haven for illicit activities and gun-smuggling. In border areas, some 
argue that security is actually worse on the Kenyan side than on the 
Somali side. Should the general security situation in Kenya deteriorate 
as elections approach in December 2002, these spillover problems from 
Somalia have the potential to exacerbate communal violence.
              long-term policy considerations for somalia
    The underlying causes of the regional and global security threats 
emanating from Somalia are profound economic and political crises--the 
utter collapse of the state, and the dangerously unsustainable and 
unproductive economy. These two crises tend to act as a vicious circle, 
reinforcing each other, so solutions will need to address both 
simultaneously. A number of principles and priorities can help to 
inform successful, long-term policy in Somalia:

  <bullet> Sustained engagement. The U.S. can no longer afford a policy 
        of benign neglect in Somalia; it must re-engage in the country. 
        This includes more visible and active diplomatic efforts to 
        communicate with local political actors, as well as 
        revitalization of non-emergency aid programs. The quality of 
        this reengagement will be more important than the quantity. Re-
        engagement must also be sustained; Somali communities need to 
        be convinced that the U.S. is interested in helping them 
        resolve long-term problems, not just address our short-term 
        security concerns. Improved intelligence. The U.S. shifted much 
        of its intelligence assets away from poor, weak states like 
        Somalia in the 1990s. Now we are scrambling for information and 
        analysis in these zones of the world. Renewed attention to 
        close, field-based country knowledge and extensive contacts 
        with nationals is essential if the U.S. is to make well-
        informed policies on Somalia.

  <bullet> ``Shaping'' strategy. Despite, or perhaps because of, the 
        harsh economic realities in the country, Somali society 
        remarkably pragmatic. Somalis as a group are not prone to 
        embrace foreign ideologies (and radical Islamic agendas are 
        viewed as foreign) unless they yield tangible benefits; the 
        moment those benefits disappear, support for the ideology 
        evaporates as well. This pragmatic, cost-benefit analysis 
        approach to the external world can and should be made to work 
        to our advantage in minimizing the impact of radical Islam in 
        Somalia. Through creative use of the carrots as well as the 
        sticks which we have at our disposal, we can shape Somalis' 
        cost-benefit calculations in ways that make it worth their 
        while to cooperate with us in preventing terrorist activities 
        in their country.

  <bullet> Expanded economic opportunity. Despite the weakness of the 
        local economy, Somalia has exhibited remarkable innovation and 
        adaptability in commercial and services sectors. Much more of 
        this entrepreneurism would flourish if a few key constraints 
        were removed or better managed. The U.S. is in a position to 
        assist in this regard, and would earn much goodwill in the 
        country if it did. Projects aimed at making the American market 
        more accessible for key exports, at assisting Somali livestock 
        exports (either through provision of livestock certification at 
        the ports, or facilities for chilled meat factories near 
        airports), improving infrastructure and management at key 
        ports, or at encouraging American partnerships with Somali 
        entrepreneurs, are among the many possibilities. Our robust 
        domestic market is itself a tool which could be used to 
        catalyze productive opportunities in Somalia and integrate the 
        country closer into the Western economy.

  <bullet> Flexibility in partnerships. Re-engagement in a country with 
        no recognized government begs the question of re-engagement 
        with whom? This nettlesome question creates significant 
        problems and disagreements in the Somali context. After ten 
        years of state collapse in Somalia, the only tenable policy is 
        one based on the yardstick measured in effective 
        administration. The U.S. must insist that it will work with any 
        and all authorities which are actually administering a region 
        or area. Political groupings which make no attempt to provide 
        basic administration for the people they claim to represent 
        should not be recognized. This approach is essentially in 
        reinforcing the message to Somali political elites that their 
        goal can no longer be to claim control over the state (or a 
        region) in order to secure foreign aid. Sovereignty in a 
        collapsed state must be empirically earned, not secured through 
        empty juridical claims. This suggests a preference for a 
        ``building block'' or regional approach to reconstituting a 
        central authority in Somalia, a policy which was in place in 
        1997-99 but which was overtaken by the Djibouti initiative to 
        create a central government via national conference in 2000. 
        That government, the Transitional National Government, claims 
        sovereign authority over the entire country but controls only 
        half of the capital Mogadishu. U.S. policy has to date 
        appropriately viewed the TNG as the result of an incomplete 
        process. In time, the TNG may have to be convinced to 
        reconstitute itself as a regional, not national, authority, and 
        engage with other regional polities in devising a federal 
        system of government. If not, top-down efforts to impose a 
        central state on Somalia appear very unlikely to succeed.

  <bullet> Engagement with business community. The business community 
        in Somalia has emerged as the most powerful political force in 
        the country. It has a mixed track record; many of its members 
        gained their fortunes in the war-economy of the early 1990s, 
        and some continue to take decisions harmful to Somali national 
        interests; but as a group the business community needs to be 
        specifically engaged with the aim of creating informal partners 
        in the war on terrorism. They will be especially sensitive to 
        the costs of non-cooperation and the benefits of working with 
        the U.S., and are in a better position than most other groups 
        in Somalia to monitor and discourage radicalism.

  <bullet> Encouragement of co-existence between Ethiopia, Arab states, 
        and Somalia. As long as Somalia is the site of a proxy war 
        between Ethiopia and the Arab world, national reconciliation 
        will be impossible. Somalia and its neighbors have many 
        powerful shared interests in expanding regional commerce, 
        reducing armed conflict and lawlessness, and working towards a 
        functional political authority in Somalia. The U.S. is in a 
        unique position to press its friends in the region to cooperate 
        to this end. This should include encouragement to allies in the 
        Arab world to subject their assistance programs to the same 
        levels of monitoring and evaluation as Western NGOs, to insure 
        they are not being misused for political purposes.

  <bullet> Avoidance of past mistakes. The U.S. and its international 
        partners must take care not to throw money at self-declared 
        regional or national authorities on the grounds in ways which 
        reinforce old, bad political habits in Somalia--habits of 
        competing to control the state solely to profiteer from 
        diverted foreign assistance. For too long, the Somali political 
        elite has viewed the state not as an administrative body 
        responsible for providing basic services for its people, but as 
        a catchment point for external assistance. Massive levels of 
        foreign aid combined with little accountability during the Cold 
        War led to a bloated and unsustainable Somali state--a castle 
        built on sand. Whatever political entity eventually emerges in 
        Somalia must be sustainable mainly on the basis of its own tax 
        revenues, or we run the risk of another collapsed state. 
        Likewise, the U.S. must avoid policies which inadvertently 
        reinforce the power or credibility of warlords Creativity. In 
        cases of protracted state collapse like Somalia we need to be 
        prepared to think outside the box. Specifically, we may need to 
        anticipate and assist both unfamiliar processes toward national 
        reconciliation in Somalia and an unconventional type of 
        national authority emerging in Somalia. Given the resource 
        constraints faced in Somalia, the kind of central government 
        which may ultimately arise in Somalia could be a minimalist 
        structure providing only core services while subcontracting 
        other responsibilities out to the private sector or to local 
        governments.

    Senator Feingold. Thank you. Ambassador Shinn.

  STATEMENT OF HON. DAVID H. SHINN, FORMER U.S. AMBASSADOR TO 
     ETHIOPIA AND SPECIAL COORDINATOR FOR SOMALIA; ADJUNCT 
    PROFESSOR, GEORGE WASHINGTON UNIVERSITY, WASHINGTON, DC

    Ambassador Shinn. Mr. Chairman, thank you very much for 
including me in this panel today, and I would like to commend 
the subcommittee for focusing on the long-term aspects of 
dealing with Somalia. There is an awful lot of attention, 
particularly in the media, on dealing with the immediate 
terrorist issues. That does not really deal with the problem, 
at least certainly not the problem we face for a long time to 
come.
    When you asked the question to Assistant Secretary 
Kansteiner about piracy, I could not help but recall that my 
first assignment in the Department of State in Washington was 
as the Somali desk officer from 1969 to 1971. I do not say that 
to date myself, but during that time I spent an awful lot of 
that 2 years dealing with issues of piracy. In this case it was 
state-supported piracy. It was the Government of Somalia 
seizing American geophysical research ships, holding them 
hostage until we could somehow negotiate their release, and 
that oftentimes took many, many weeks. So piracy of one kind or 
another has a very long history in that part of the world.
    Senator Frist mentioned the issue of Somalia in the 
regional context and how it plays into the conflicts that exist 
in the region. I think that point deserves to be reemphasized. 
All of the countries of the Horn are interlinked with the 
others in terms of conflict. The record is quite frankly 
atrocious, and Somalia is no exception. I think it is worth 
just putting on the record that the primary cause in the case 
of Somalia is the fact that you have Somali populations that 
live in neighboring Ethiopia, the northeastern frontier 
district of Kenya, and in a part of Djibouti. It has been the 
stated policy of the Government of Somalia since independence 
in 1960 to incorporate these populations into an independent 
Somalia, all united.
    Having written my master's thesis on the pan-Somali 
movement at a time when it was very much in vogue and everyone 
in academia thought that this might even be a good idea, we 
have seen in effect the opposite happen in recent years, at 
least since the late 1980's. There has been a fracturing of 
Somalia with the clans going their separate ways. For one, I 
think we are going to see a return some day, perhaps not in my 
lifetime, where the pan-Somali effort is going to haunt us 
again, if it has not already begun to head in that direction.
    For the time being, however, the issue is one of fracturing 
and fragmentation, and not one of uniting. But the point is 
that there is a very long history here of a serious issue that 
will almost certainly come back to haunt everyone in the 
region, and those who have an interest in the region.
    I submitted in writing a much more detailed statement on 
ideas for dealing with Somalia. I am not going to read that 
statement. I simply want to summarize some of the key points 
from it. The request was to focus on long-term policies, and I 
tried for the most part to do that. I began by making several 
assumptions. One of the assumptions, and this has been stated 
by others, is that we really do not have good information, good 
intelligence, on the situation in Somalia today, for the simple 
reason that we basically abandoned Somalia in 1994.
    All of our troops left in March of that year, and the 
Somali liaison office shut down several months thereafter. The 
U.N. stayed on for almost another year, and we had tangential 
interest in what the U.N. was doing, but we pretty much washed 
our hands of Somalia. There were relatively few visits of 
Americans going back into the southern two-thirds of Somalia. 
We have not had a very active collection effort on what is 
happening there. I think until the last several months, until 
after September 11, we did not even really know who all the 
players were.
    Now, there has been a crash effort to learn all of that. I 
think a great deal has been learned, but the fact is that we 
had an intelligence vacuum in that area for about 7 or 8 years, 
and it takes time to build back up. That is one of the reasons 
that argues against doing anything on a rash basis in Somalia 
until we do have a better understanding of what is going on.
    I do not have any doubt about the terrorist links of Al-
Ittihad. I have felt it was a terrorist organization for many 
years, and I am on the record as having stated that. Nor do I 
question, although I am in no position to prove that it has 
links to al-Qaeda, the fact that it did conduct terrorist 
activities in Ethiopia in the mid-1990's. Indeed, Al-Ittihad 
even took credit for some of those terrorist acts, blowing up 
of hotels, attempted assassination of an Ethiopian minister. 
There is no question but what Al-Ittihad has some blood on its 
hands and should be held accountable.
    The degree to which its agenda is aimed against us is more 
questionable. There are some allegations of linkages to the 
bombings of the embassies in Nairobi and Dar-es-Salaam and some 
suggestion that they were involved in a few of the attacks on 
the international community when we were there in force in 
1993. But with those exceptions, by and large it has been a 
Somali agenda, one that has focused on creating an Islamic 
state in Somalia, and incorporating the Somali inhibited part 
of Ethiopia, or at least freeing it from Ethiopian sovereignty.
    Before one can really talk seriously about any kind of a 
long-term American policy in Somalia, there really has to be 
some modicum of central authority, some indication that rule of 
law is either underway or has at least begun. It is in my view 
impossible to talk about any really serious policy in that 
country without the prospect for something that is akin to a 
nation-state.
    It does not have to look like it used to look, and it does 
not have to look even like its neighbors, but it cannot 
continue to rule by independent fiefdom with a Transitional 
National Government that has absolutely minimal control in the 
country. Until steps are taken to achieve that goal, it is 
going to be very difficult for us to have a serious long-term 
policy.
    Equally important, in my view, and I am still working on 
the assumptions of my policy remarks, a unilateral U.S. policy 
is doomed to fail. We simply do not have either the will or the 
resources to carry out any kind of significant unilateral 
policy there. I was very pleased to hear from Assistant 
Secretary Kansteiner that that is not the way we seem to be 
going.
    We seem to be willing to talk with others who do have 
perhaps a more serious interest in Somalia, or at least would 
be willing to partner with us. I think that is absolutely 
critical. The whole issue of scarce American resources and 
probably an inability to deliver in the long run on our own 
argues against any kind of unilateral policy.
    The process that I would propose in trying to develop a 
long-term policy is to start a series of consultations with our 
European allies, particularly Italy and the United Kingdom, 
with key countries in the region, the three neighbors, 
obviously, plus Egypt, and then finally with the United 
Nations. I would also consult with the European Union. I think 
this is a process that should begin much sooner rather than 
later. In fact, I see no reason why the process should not 
begin almost immediately.
    As part of that process, we also need to be thinking in 
terms of how we interact with Somalis themselves? This is not 
an easy process. We have had some luck in using our embassy in 
Djibouti and making periodic visits to Somaliland, the northern 
one-third of the country, and visiting Hargeisa, the capital of 
Somaliland. That has provided us a much better information base 
than what we have in the southern two-thirds of Somalia.
    I would argue, quite frankly, that even though we should 
under no circumstance extend diplomatic relations to Somaliland 
at this point, it is time to be thinking in terms of a small 
office there. I do not care what you call it. There has got to 
be some way to place a couple of State Department and a couple 
of USAID people in Hargeisa.
    I know that is controversial. I know it probably will not 
fly at this point in time, but it is high time to think about 
that. Security is not a serious issue in most of Somaliland, 
and that should not be the argument for preventing an American 
low-level involvement there.
    The second step of the contact process with Somalias would 
be simply to increase the Somali-watcher presence working out 
of Nairobi. It might even be useful to have someone in the 
embassy in Addis Ababa to perform a similar role, because you 
get so many visitors from Somalia who pass through Addis Ababa.
    Let me turn to the long-term policy suggestions. They are 
not set forth as any sort of concrete plan. They are simply 
points to begin the dialog, to begin the discussion. The first 
would be targeted assistance to southern Somalia and 
Somaliland, where I think it can be done rather easily. I 
realize we have some assistance going in there now, but I think 
it can increase.
    In the case of the southern two-thirds of Somalia, I think 
you have to work primarily through international NGO's and 
indigenous NGO's. I believe it can be done, and I believe you 
can step up the kinds of things we are doing there, everything 
from very small rehabilitation projects on roads, for example, 
to helping out with some small clinics, perhaps some primary 
education, all of this working through NGO's because of the 
security problems there. I think a targeted assistance program 
is the place to begin.
    Another thing to take a very serious look at is a stepped-
up public diplomacy program. We ignored Somalia until September 
11. It is time to sit a group down, brainstorm, figure out ways 
that you can start sending a message to the Somalis. For the 
moment the Somali service of BBC seems to be the service that 
is most listened to. I do not know how much credibility the 
Voice of America has there. I do not believe it has a Somali 
service at the moment. It may be necessary to build that up. It 
may be necessary to use the BBC. It may be necessary to do 
something more innovative like work with World Space and 
provide donor-provided radio receivers to Somalis you can then 
have your own programming going directly to them as 
individuals. Clearly there is a group that could sit down and 
brainstorm this issue and come up with a public diplomacy 
program that makes sense.
    Point No. 3 is intelligence cooperation. I gather this is 
already underway. I will not get into it in any detail. This is 
a very difficult thing to do, but because of the immediate 
terrorist threat, I think it needs to be done with the 
Government of Somaliland, with the Government in Puntland, with 
the Transitional National Government, and with some of the 
individual fiefdom leaders with whom we have reasonably good 
contacts. I say this knowing full well that about 50 percent, 
at a minimum, of their information is disinformation. You have 
got to be able to separate good information from bad.
    Looking further into the future, although not that far into 
the future, we need to be thinking about building up and 
reestablishing police forces in those parts of Somalia where it 
is possible to do that. The U.N. actually was having some 
success with that in 1993. It all came apart because the U.N. 
became preoccupied with the hunt for Aideed. But if you do not 
have a police force you are not going to have any kind of 
viable security. There are areas where you cannot do it, but 
there are some areas where you can do it.
    The last policy recommendation I would suggest is that we 
work with the Somali diaspora in the United States and in 
Canada. The biggest Somali community in North America is in 
Toronto. The biggest in the United States is in Minneapolis and 
second largest in Columbus, Ohio. There are people in those 
communities who are anxious to help. They are almost as divided 
as the Somalis are in the country itself, but there ought to be 
some innovative ways to work with that group and somehow bring 
them into the process.
    As I say, these policy suggestions are not intended to 
serve as any kind of a blueprint. They are simply intended to 
begin the discussion. I realize that once you have 
consultations, you hear from other countries, many of these 
ideas will be changed or refined, or thrown out, or new ones 
will be added. But the bottom line is that Somalia has been a 
security vacuum since 1991, and bad things enter vacuums.
    [The prepared statement of Ambassador Shinn follows:]

 Prepared Statement of Hon. David H. Shinn, Former U.S. Ambassador to 
              Ethiopia and Special Coordinator for Somalia

    I thank the subcommittee for inviting me to participate in this 
hearing. The guidelines for this testimony requested my views on the 
prospects and options for a coherent, long-term Somalia policy that 
aims to strengthen state capacity and curtail terrorists' opportunities 
within Somalia's borders, I have endeavored to focus on this rather 
narrow but challenging objective. I need to make several assumptions, 
however, so that my policy suggestions are clear.
                              assumptions
Geographical Scope
    I include both the southern two-thirds of Somalia known prior to 
independence as Italian Somalia and the northern third known earlier as 
British Somaliland as constituting the territory under discussion 
today. The Transitional National Government in the southern two-thirds 
of Somalia exercises control over part of Mogadishu and a tiny part of 
the rest of the country. Political factions, usually supported by 
militias, maintain control in most of the country and operate as 
independent fiefdoms. The northern third of the country has declared 
its independence, established a government and exercises control over 
most of its territory. No other country, however, has officially 
recognized the Mohamed Ibrahim Egal government in Hargeisa.
American Comprehension of Somalia
    The United States has been absent from Somalia since 1994. As a 
result, its understanding of the situation on the ground, even after a 
recent crash effort to get up to speed, remains flawed. As a result of 
regular visits in recent years to Somaliland by personnel from the U.S. 
embassy in Djibouti, our knowledge of the situation there is better.
Existence of Terrorist Organization
    Somalia already harbors a terrorist organization known as al-
Ittihad al-Islamia (Unity of Islam), which the U.S. placed on the 
terrorist list last fall. Al-Ittihad desires to create an Islamic State 
in Somalia and either incorporate the Somali-inhabited territory in 
neighboring Ethiopia or free it from Ethiopian control. Al-Ittihad took 
credit for a number of terrorist acts in Ethiopia in the mid-1990s. The 
focus of al-Ittihad is on Somali issues and it may have reduced its 
involvement in terrorism in recent years. It increases its Somali 
following by engaging in social programs and supporting Islamic 
schools. It may have played a small role in attacks on U.S. and United 
Nations forces in Mogadishu in 1993 by cooperating with Somali groups 
hostile to the international presence. There are also murky allegations 
that al-Ittihad played some kind of support role in the 1998 al-Qaeda 
attack on the American embassies in Nairobi, Kenya, and Dar es Salaam, 
Tanzania.
Need for Central Authority
    Until a semblance of rule of law and some modicum of central 
authority are reestablished throughout the country, it will be 
virtually impossible to implement successfully long-term policies aimed 
at eliminating or even reducing the terrorist threat from Somalia to 
the international community.
Unilateral Effort Doomed to Fail
    A unilateral, long-term U.S. policy initiative in Somalia is almost 
guaranteed to fail or achieve little. The only long-term strategy that 
has any hope for success will be coordinated carefully with key 
countries in the region and European allies. This, necessarily, will 
complicate agreement and may even dilute initial American ideas for 
dealing with Somalia.
Scarce U.S. Resources
    It will be very difficult to mobilize significant U.S. resources in 
support of a new policy towards Somalia. There are too many competing 
priorities, both domestic and international. Some in Congress and 
elsewhere will argue that we spent billions in Somalia once before, 
question whether it was worth the cost and be reluctant to reengage if 
the cost is high. This is one of the reasons why it is important to 
have domestic agreement on the policy and support for it by key 
European allies and countries in the region.
                              first steps
Consultations
    Before I move to long term policy suggestions, I would first 
propose a comprehensive consultative process to discuss U.S. proposals 
privately with select parties. A working-level, inter-agency team 
headed by a Deputy Assistant Secretary from the Department of State 
could accomplish this. In addition to the State Department, members 
should include Defense, USAID, CIA and possibly Treasury and Justice. 
The consultations should begin in Rome followed by London and the 
European Union headquarters in Brussels. If other European capitals 
show any interest, they could be added to the itinerary. A final stop 
before continuing the dialogue with key countries in the region should 
be a visit with the Office of Political Affairs at the United Nations 
in New York.
    Assuming there is general agreement with U.S. policy ideas, it 
would be important at this stage to decide how to factor the Europeans 
and the United Nations into the process. It could continue as an U.S.-
led effort, a joint undertaking or even under the leadership of another 
country or organization. In any event, the next step should be 
comprehensive consultations with Ethiopia, Djibouti, Kenya and Egypt. 
As neighbors, the first three countries have a vested interest in any 
new policy towards Somalia and are in a position to help or hinder 
implementation of that policy. Egypt has long maintained a presence in 
Mogadishu and injected itself into previous Somali peace initiatives, 
Egypt also offers a window to the Islamic world. Somalia, like Egypt, 
is a member of the Arab League and the Organization of the Islamic 
Conference. Somalia's population is 99 percent Muslim.
    Normally, one would have consultations at an early stage with 
representatives of the country under discussion. The absence of a 
meaningful central government and the existence of numerous Somali 
fiefdoms argue against this until there is at least broad agreement 
outside Somalia on a policy. It is, of course, possible there will be 
no general agreement among the key parties outside Somalia and the U.S. 
must decide if it has the will and the resources to proceed on its own 
or in partnership with one or more parties that do agree with the 
policy.
Presence in Northern Somalia
    Somaliland is a special situation. We have had no American 
representation there since we closed down a branch office some two 
decades ago. Although this is not the time to extend diplomatic 
recognition to Somaliland, it is time to locate a larger international 
assistance presence and to establish a small American office in 
Hargeisa, the capital. The focus should be on the provision of 
international assistance and sharing of information on terrorism. The 
American presence might consist of two State Department officers and 
one or two USAID staff. In addition to monitoring a small American 
assistance program, this office would serve as the eyes and the ears of 
the U.S. on a variety of issues, including terrorism. Unlike Mogadishu, 
the security situation in Hargeisa seems to allow the assignment of 
American personnel there.
Monitoring the Rest of Somalia
    Due to the tenuous security situation, Mogadishu and the southern 
two-thirds of Somalia are a more difficult challenge. In the short-
term, it might be necessary to increase the number of Somali watchers 
at our embassy in neighboring Nairobi, Kenya, and perhaps add someone 
to the staff at the embassy in Addis Ababa, Ethiopia. Eventually, 
security conditions permitting, the goal should be to reestablish a 
presence in Mogadishu. These steps will permit the U.S. to implement 
its policy more effectively and consider suggestions for refining it as 
conditions change on the ground.
                         long term policy ideas
Targeted Assistance
    We should have no illusions about the role foreign aid has played 
in Somalia in the past. Although some projects such as the construction 
of ports in Berbera, Bosasso, Mogadishu and Kismayo were successful, 
the list of failed aid projects in Somalia is disturbingly long. The 
problematic security situation in the Southern two-thirds of Somalia 
severely limits the ability of the international community to carry out 
projects. Nevertheless, it is possible to work with local and 
international NGOs in those parts of Somalia where security is 
reasonably good. In fact, the successful provision of assistance to 
such areas might serve as an example and encourage more troubled 
regions to improve security so that they can also benefit from 
international largesse. In addition, it should be possible to carry out 
assistance activities in most of Somaliland.
    Assistance will necessarily be limited at first and confined to 
projects that seem realistic in view of the security situation. Small-
scale road and infrastructure repair activities that can use Somali 
labor and be supervised by NGOs might be a good starting point. The 
provision of small grants to local communities for reestablishing 
primary schools that hire local teachers and basic health clinics that 
can draw on former health personnel is another possibility. One could 
consider more innovative programs such as funding the transport of 
donated books collected by organizations such as the International Book 
Bank. The books could be distributed to communities willing to 
establish small reading rooms.
    The objective is to build on successes and eliminate failures. The 
latter will occur in an environment like Somalia. From the standpoint 
of the donor community, the goal of the assistance program is to begin 
the process of creating conditions that will discourage Somalis from 
following organizations like al-Ittihad and learn there are programs 
that will permit them to return to a more normal situation. Eventually, 
it may be possible for parts of southern Somalia to reestablish law and 
order and offer residents incentives for accepting local authority. 
Over time, it may even be possible to knit these areas together in some 
kind of federal or centralized governmental structure so that Somalia 
can rejoin the community of nations.
    After more than ten years as a failed state, it will be difficult 
and take time for Somalia to reestablish control throughout the 
country. There will be setbacks. But the policy of avoiding contact 
with Somalia is worse and only increases the prospect of terrorist 
surprises from that country. Reengagement through assistance programs 
will eventually result in contacts on a variety of issues, including 
terrorism. Foreign assistance successes in Somalia will also encourage 
other donor countries to offer resources and perhaps trained personnel. 
The fact is that it is not in the interest of the U.S. and the 
international community to allow Somalia to continue as a failed state. 
The international community can not prevent bad things coming out of 
Somalia until it reengages and helps reestablish the rule of law.
Public Diplomacy Program
    Now that the war on terrorism is the American foreign policy 
priority, the U.S. needs to focus on actions it can take and themes it 
can emphasize in the Horn of Africa generally and Somalia in 
particular. The most obvious candidate for this task over the short 
term is the Voice of America. In fact, however, the Somali language 
service of the BBC has a greater reach and credibility in Somalia. This 
is another argument for ensuring U.S. policy has the backing of key 
allies. If the VOA is not in a position to carry out a major effort in 
the Somali language to deal with the terrorist threat, then the U.S. 
should investigate other options. Perhaps the widespread provision to 
Somalis of radio receivers financed by donor countries and specialized 
programming carried by the World Space satellite facility is an option. 
Surely a group of innovative people could come up with a range of 
public diplomacy ideas in a single brain storming session.
Intelligence Cooperation
    Except for September 11 and the urgent need to quash al-Qaeda, I 
would not propose early intelligence cooperation with Somalis. 
Unfortunately, the current situation does not allow for delays. The 
most cost-effective weapon the international community has against 
terrorism is good intelligence. The absence of the U.S. from Somalia 
since 1994 has resulted in a human intelligence void. This should be 
rectified now and on a long-term basis. The U.S. needs to begin 
intelligence cooperation with the Egal government in Hargeisa, the weak 
Transitional National Government (TNG) in Mogadishu and with the 
leaders of those Somali fiefdoms who are willing to work with the U.S. 
This should be a two way street so long as U.S. information going to 
Somalis concerns real terrorist threats and does not enmesh the U.S. in 
local Somali disputes. While the U.S. should expect to receive a fair 
share of information from Somalis that has as its purpose the weakening 
of an enemy Somali faction, with experience U.S. personnel can separate 
useful information from that which has another agenda.
Cooperation with Somali Security Forces
    Eventually, the international community must assist Somalia with 
the reestablishment of security forces under some kind of centralized 
authority. The United Nations actually made some progress in 
reconstituting a Somali police force in 1993. The preoccupation with 
the ``hunt for Aideed'' ended any hope that this undertaking could be 
successful. Nor is it now an appropriate time to try to rebuild a 
police force. If there is success, however, on the assistance front and 
if security improves, it would be appropriate to begin efforts to 
reequip a police force, at least in those areas where the rule of law 
has started to return. Although support for a national defense force is 
much further down the road, it is not too early to begin thinking about 
ways the international community could assist.
The Somali Diaspora
    Many talented Somalis now live outside Somalia. Toronto has the 
largest community in North America. Minneapolis, Minnesota, and 
Columbus, Ohio, have the first and second largest communities 
respectively in the U.S. Some of these Somalis are anxious to 
contribute to the betterment of their country of origin. While it is 
true that Somalis in the diaspora are about as divided as those 
remaining in Somalia, this is still an untapped resource except for the 
remittances that go back to relatives. Perhaps an American foundation 
or NGO could be encouraged to assemble representatives from these 
communities in North America to determine if there are ways they could 
contribute more directly to stability in Somalia and solicit ideas for 
reducing or eliminating the terrorist threat coming from Somalia.
                               conclusion
    These long-term policy suggestions constitute a starting point 
rather than a definitive program. The purpose of the consultations 
recommended at the beginning of these remarks is to add, subtract and 
refine policy ideas. Properly fleshed out, however, these suggestions 
would allow an interagency team to begin the dialogue. The final 
program might look much different. The urgency is in launching the 
dialogue and gaining support from allies and countries in the region.

    Senator Feingold. Thank you, Mr. Ambassador, for your 
testimony.
    Mr. Macpherson.

   STATEMENT OF ROBERT MACPHERSON, DIRECTOR, PROTECTION AND 
              SECURITY UNIT, CARE USA, ATLANTA, GA

    Mr. Macpherson. Thank you, Mr. Chairman, Senator. Thank you 
for allowing me to testify on behalf of CARE USA. CARE has 
worked in Somalia for more than two decades providing emergency 
relief and rehabilitation services to hundreds of thousands of 
people in 14 of the country's 18 regions.
    I traveled to Mogadishu for the first time in 1992, where 
as stated warlords were cutting off food supplies and tens of 
thousands of people were starving. I was there as a U.S. Marine 
with Operation Restore Hope. We were there to make sure life-
sustaining assistance made it to the people who needed it.
    In 1994, I began my work with CARE to assist with emergency 
response and humanitarian demining efforts in post-war 
countries, including Somalia. I returned to Somalia several 
times, most recently in the year 2001. From what I have seen, 
things have changed, and in some ways Somalia remains one of 
the world's poorest countries. One out of 10 children dies 
before their fifth birthday, and 86 percent of the children do 
not attend school.
    However, like an increasing number of impoverished nations, 
it appears Somalia may have hit bottom and is slowly working 
its way up. This is because its people, exhausted by war, are 
taking responsibility for their own lives. For instance, 
parents, tired of waiting for the government to educate their 
children, have opened schools, often at great personal expense 
and sacrifice.
    Private businesses such as telephone and transport 
companies are defying the warlords in order to deliver goods 
and services. Irrigation canals and roads are being rebuilt to 
support Somali agriculture and reduce reliance on outside aid. 
Food production has increased and, most importantly, there are 
significant local, regional and national attempts at 
reconciliation and governance.
    The signs of hope are many. After years of strife, Somalia 
has now reached a critical crossroad. Thanks to the efforts of 
millions of Somalis at home and abroad, their shattered land 
has an opportunity to move forward. From CARE's perspective, 
the U.S. Government can assist in two ways, promote stability 
and support community groups already working for peace and 
prosperity.
    Stability is the foundation for all positive political, 
social, and economic change in the country. In parts of 
Somalia, political and administrative structures are 
functioning and helping communities to make progress. For 
instance, as stated, much of northern Somalia is peaceful and 
well-ordered. In Hargeisa in northwest Somalia I am safe to 
walk the streets during day or night. In contrast to many 
countries, vehicles actually obey stop lights and the traffic 
police. Money changers display hard currency on the street 
without fear of robbery, and such security throughout large 
parts of the country is a testament to the collective will of 
the Somalis to reject their violent past.
    However, southern Somalia is still plagued by fighting 
between rival warlords in pursuit of personal gain. It must be 
noted that ordinary Somalis survived despite and not because of 
the warlords. What can be done to enhance stability and control 
violence? The international community should support the 
development of appropriate governing structures. We should 
focus our assistance on strengthening those government 
institutions that promote human development. Departments of 
health, education, and social welfare require particular 
attention.
    For a country that has now missed well over a decade of 
formal schooling, education is a priority. Largely through 
private donations from Somalis living abroad, schools have been 
built, textbooks printed, and teachers trained. Today in 
Somalia there are more primary schools operating than existed 
in the late 1980's, yet Somalia is still plagued by 17 percent 
adult literacy rate, and 14 percent primary school enrollment. 
This is a weak foundation upon which to build a peaceful, 
democratic, and stable society. These individual efforts need 
our collective help.
    The international community should also invest in programs 
that provide alternatives to violence. Today in Somalia there 
are thousands of young men who know how to field-strip and fire 
an AK-47 but cannot read or write, yet if you talk to any of 
these young militiamen in Mogadishu, one common refrain comes 
through. ``If I could do something else, I would.'' Vocational 
training and employment opportunities for these men are 
priority areas. Somalia needs carpenters, masons, electricians 
to rebuild its shattered infrastructure. It needs tanners, 
shoemakers and slaughterhouse technicians to capitalize on the 
country's primary economic asset, and that is livestock 
production.
    This is not an impossible task. Across Somalia a new 
generation of community groups dedicated to poverty reduction 
and social change have emerged to challenge the power of the 
warlords. Through an ambitious U.S. Government grant, CARE 
assisted in identifying and training these groups. This 
program, which has been running since the mid-1990's, has 
received strong support from our government and is an example 
of effective foreign assistance.
    More than 50 CARE-trained Somali nongovernmental 
organizations currently provide a range of emergency and 
development services across the entire country. The CARE-
trained Somali NGO Bani Adam provides loans to farmers with a 
95-percent repayment rate. The Somali agency, Agro Action, has 
assisted more than 1,000 local farmers to improve their yield 
through training, agricultural extension, and construction of 
irrigation systems.
    Somali partners in CARE's USAID-supported food-for-work 
programs have organized communities to rehabilitate 
approximately 1,400 miles of road in the past year alone. The 
investment in civil society organizations such as these is one 
of the best ways to promote development in Somalia.
    Somalia is a country in transition. Unifying coherent 
support to establish governing stability is urgently needed. 
Equally important is increased investment in both public sector 
and civil society in key development areas such as education, 
job creation, and health. Far-reaching change in Somalia is 
possible, but it will not be easy. An effective development 
strategy should complement and support the enormous collective 
will for peace and prosperity that exists within Somalia. 
Helping Somalis achieve and sustain such progress should be the 
central goal of American policy.
    Thank you for giving me this opportunity today.
    [The prepared statement of Mr. Macpherson follows:]

   Prepared Statement of Robert Macpherson, Director, Protection and 
                        Security Unit, CARE USA

    Distinguished Senators, ladies and gentlemen, good afternoon. Thank 
you for allowing me to testify today regarding United States policy 
toward Somalia.
    My name is Robert Macpherson. I am here today to offer testimony on 
behalf of CARE USA. CARE is one of the largest non-sectarian 
humanitarian organizations in the world, operational in 65 developing 
countries worldwide. CARE works in partnership with communities on a 
range of grass-roots economic, environmental, agricultural and health 
initiatives. CARE also responds to humanitarian crises around the 
globe, providing food and other life-sustaining assistance to people 
whose lives are threatened by man-made and natural disasters. In 
Somalia, where we have worked for more than two decades, CARE is 
currently the largest humanitarian organization operational on the 
ground, providing both emergency relief and rehabilitation services to 
hundreds of thousands of poor people in 14 out of 18 regions of the 
country.
    I joined CARE after seeing its work relieving famine in Somalia 
during the dark, chaotic days of 1992-1993. At that time, I was an 
Officer in the United States Marine Corps during Operation RESTORE 
HOPE. I was witness to the societal disintegration that tore Somalia 
apart. I saw the factionalism, the looting, and the rise of warlords. I 
witnessed the resulting humanitarian crisis, in which many tens of 
thousands of Somalis died, and the ultimately successful effort of 
humanitarian organizations to bring the crisis under control. You may 
ask why someone who lived through that painful experience would appear 
here today as an advocate for the people of Somalia.
    The answer is that Somalia has begun to change. Based on my return 
trips to Somalia since 1993, I can say that the Somali people have made 
progress toward making their country a more peaceful, less impoverished 
place. After years of civil strife, Somalia has now reached a critical 
crossroad. Thanks in large part to the efforts of millions of 
individual Somalis, at home and abroad, this shattered land today has 
an opportunity to move towards a more secure, stable and prosperous 
future. We should do all that we can to support such progress.
    Somalis are exhausted by war. With little assistance from the 
outside world, they are struggling to combat the forces of lawlessness 
and division. Over the last five years, there have been significant 
local, regional and national attempts at re-establishing governance 
structures. Markets are bustling, new houses and businesses are rising 
in Mogadishu and in major towns across the country. In some towns it is 
rare to see a gun on the street. Things are, however, far from rosy; 
there are still security problems and most Somalis are abysmally poor. 
But today relief agencies can drive with peace of mind through many of 
the same towns and on many of the same roads where once they were 
threatened by ambush.
    What can we do to support the positive efforts towards peace and 
democracy made by thousands of individual Somalis? How can we help this 
devastated country renounce the poverty and lawlessness of its past? 
These questions are particularly relevant following the September 11th 
terrorist attacks. As Secretary of State Colin Powell noted recently at 
the World Economic Forum, ``terrorism . . . flourishes in areas of 
poverty, despair and hopelessness, where people see no future.''
    CARE believes that two principles should be at the core of any 
development strategy the international community pursues in Somalia: 
Stability and Somali Ownership.
                      promoting greater stability
    Stability is the foundation of all positive political, social and 
economic change in the country. It is a prerequisite for the formation 
of effective government structures, and effective government is key to 
the control of negative societal influences, including terrorism. For 
example, regional authorities in Somalia today have only limited 
ability to police and control borders. Until Somalia has increased 
administrative capacity countrywide, it will be difficult for it to 
participate effectively in the ``war on terror.''
    In parts of the country--where some sort of functioning political 
and administrative structures have been established--progress has been 
made. Much of northern Somalia is peaceful and well ordered. In 
Hargeisa, in northwest Somalia, it is safe to walk the streets at any 
time of day or night. In contrast to many countries, vehicles obey 
stoplights and traffic police. Moneychangers display hard currency on 
the street without fear of robbery. Such security in large parts of the 
country is a powerful testament to the collective will of Somalis to 
reject the violent past.
    However, southern Somalia is still plagued by sporadic fighting 
between rival warlords in the pursuit of personal enrichment. It should 
be noted that ordinary Somalis survive despite, not because of, these 
warlords. The people are fed up with the fighting and the factionalism. 
Until civil strife is curtailed, human development will be impeded.
    What can be done to enhance stability and control violence? As the 
international community has painfully learned from Afghanistan, we can 
not afford to ignore failed states like Somalia. Somalia's problems 
must be addressed at all levels, from the highest political echelons 
involving the international community to the grass-roots. In focusing 
increased attention on Somalia's problems, the international community 
must take great pains to not undermine the positive political, social 
and economic changes ordinary Somalis have wrought for themselves.
    Somalia is experimenting with different forms of local and regional 
government in a process that draws on the country's strong tradition of 
participatory and consultative democracy at the community level. It is 
time consuming and often flawed, but it is a process that has the 
genuine support of the Somali people. Popular support is essential to 
the eventual formation of a system of government that can best 
guarantee peace and security over the long-term. Somalia has been 
without a national government for more than a decade; it is in the best 
interest of both the Somali people and the international community that 
this void not be allowed to persist much longer.
    While Somalia's leaders will need to take responsibility for 
finding appropriate political solutions for their country, there are 
things the international community can do right now to promote 
stability:

  <bullet> The international community should vigorously support Somali 
        efforts towards peace and reconciliation. The policies and 
        actions of the U.S. Government, neighboring countries, and 
        other actors should be consistent, coordinated and have the 
        well being of Somalia at heart. The U.S. Government should 
        carefully examine the role and potential of the Transitional 
        National Government (TNG), the result of one important regional 
        initiative, to determine whether and how to support it. As a 
        non-political organization, CARE does not endorse any one 
        political process or regional administration. However, the 
        international community should support the development of 
        appropriate decentralized governance structures that allow for 
        a reasonable amount of regional autonomy, which has become an 
        increasingly important reality in Somalia in the last decade.

  <bullet> We should focus our support on strengthening those 
        government institutions that promote human development. 
        Departments of health, education and social welfare require 
        particular attention. Somalia still has some of the lowest 
        levels of educational attainment in the world: 17.1% adult 
        literacy rate and 13.6% primary school enrollment rate. This is 
        a weak foundation upon which to build a peaceful, democratic 
        and stable society. The international community should also 
        invest in programs that provide alternatives to violence. Today 
        in Somalia there are hundreds of thousands of young men who 
        know how to strip and fire an AK-47 but cannot read or write. 
        Yet, if you talk to any young militiaman in Somalia you will 
        hear a familiar refrain: ``If I could do something else, I 
        would.'' Vocational training and employment opportunities for 
        these men are priority areas, and not just an investment in 
        stability. Somalia needs carpenters, masons and electricians to 
        rebuild its shattered infrastructure. It needs tanners, 
        shoemakers and slaughterhouse technicians to capitalize on the 
        country's primary economic activity: livestock production.
       promoting sustainable development through somali ownership
    Somalia needs people and organizations that can counterbalance the 
forces of lawlessness and division. There are local heroes, like Edna 
Adan Ismail, who almost single-handedly raised a maternity hospital for 
the women of Hargeisa in northwest Somalia. There are the executives of 
Telcom Somalia who have built one of the cheapest and most efficient 
telecommunications services in the world in the midst of civil strife. 
There are individuals such as Dr. Mohammoud Zahid Mohamoud and Dr. 
Abdullahi Fara Asseyr who gave up lucrative jobs abroad to start a 
medical clinic in downtown Mogadishu. There are trucking companies, who 
guarantee delivery of humanitarian food and materials across clan lines 
and often at great personal risk.
    Education, for a country that has now missed well over a decade of 
formal schooling, is of paramount importance to producing the human 
resources that can participate meaningfully in the peaceful development 
of the country. Individual Somalis have made extraordinary efforts to 
revive formal education. Largely through private donations from Somalis 
living abroad, schools have been built, textbooks printed and teachers 
trained. Today in Somalia there are more primary schools operating than 
existed in the late 1980s. Institutions of higher learning, such as 
Amoud University, have opened thanks to private donations of money and 
teaching talent from the international community of Somalis. Some of 
the most popular curriculums feature English and computer science, 
reflecting a general yearning across Somali society to rejoin the 
modern world. Such individual efforts need our collective help.

  <bullet> These examples are indicative of an important trend in 
        Somalia over the past decade: the growth of civil society. They 
        also testify to the realities of development in Somalia. Simply 
        put, aid strategies work best when they promote a feeling of 
        ownership and investment among local communities. A corollary 
        to Somali ownership is to recognize what does network. 
        Specifically, aid should not be implemented through large, 
        externally-imposed schemes. CARE believes that the key to 
        development success in Somalia is to work ``bottom up'', not 
        ``top down.''

    Across Somalia, a new generation of community groups dedicated to 
poverty reduction and social change is emerging to challenge the power 
of the warlords. Through an ambitious U.S. Government grant, CARE has 
become a leader in identifying, training and graduating these groups. 
This program, which has been running since the mid-1990s, has received 
strong support from the U.S. Ambassador and is a model for how the U.S. 
Government can deliver foreign assistance in countries where it does 
not have a USAID mission. More than 50 CARE-trained Somali non-
governmental organizations (NGOs) currently provide a range of 
emergency and development services across the country, with greater 
efficiency than many international agencies.
    Why are they so successful? Key to the effectiveness of local 
organizations is ``Somali Ownership.'' This principle recognizes that 
if Somalis are going to protect and invest in their society, they must 
have influence over the people and processes that order it. This is why 
a local organization with roots in its community enjoys a degree of 
protection and acceptance that international agencies and other 
``outsiders'' cannot match. This protection allows Somali organizations 
to access insecure areas or work with populations that might otherwise 
be off-limits to an international agency. In times of peace, their 
enhanced knowledge of the political and cultural context coupled with 
their administrative and organizational skills make them effective and 
respected advocates for, and servants of, their community.
    The CARE-trained Somali NGO Bani Adam, for example, operates a 
revolving loan fund to farmers that has a 95% repayment rate. The 
Somali agency Agro Action has assisted more than 1,000 local farmers to 
improve their yield through training, agricultural extension and the 
construction of irrigation culverts and sluice gates. Somali partners 
in CARE's USAID-supported food for work programs have organized 
communities to rehabilitate more than 2,000 kilometers of roads in the 
past year alone. Many Somali NGOs are women-led or run, giving a voice 
to some of the most dispossessed and disadvantaged. Most international 
agencies working in Somalia have expressed interest in or have already 
started replicating CARE's work with local partner organizations. The 
investment in civil society organizations such as these is one of the 
best ways to promote development in Somalia. CARE recommends that such 
investments be expanded.
                               conclusion
    Somalia is a country in transition. How we act now can positively 
influence that transition to the benefit of millions of poor people in 
Somalia, while also promoting greater international stability. Unified 
and coherent support for political processes to establish effective 
governance in Somalia is urgently needed. Equally important is 
increased investment in both public sector and civil society capacity 
in key development areas such as education, job creation, and health. 
An effective development strategy should complement and support the 
enormous collective will for peace and prosperity that exists among 
most Somalis. This will, and the resources that can be brought in 
support of it, has the potential to transform Somalia from a land of 
tragedy to a place of hope, opportunity and lasting peace. Far-reaching 
change in Somalia is possible, but it will not be easy. Helping Somalis 
achieve and sustain such progress should be the central goal of U.S. 
policy.
    Thank you for giving CARE the opportunity to speak to provide this 
input on future U.S. policy toward Somalia.

    Senator Feingold. Thank you, Mr. Macpherson. I want to 
thank all of you for your excellent testimony. You each have 
very interesting comments and backgrounds, and a tremendous 
commitment to this subject, and I appreciate it. I am about to 
begin 7-minute rounds of questions, but first let me say how 
pleased I am to see Senator Nelson, who is not a member of the 
subcommittee but of course a member of the full committee, and 
I appreciate his participation.
    Let me ask all of you, how is the U.N. perceived in 
Somalia, and how might existing perceptions affect any role the 
United Nations might play in the future in bringing stability 
to the country?
    Dr. Menkhaus. I work frequently for the U.N. as a 
consultant there, and I can tell you that the U.N. has a mixed 
reputation. Its experience in Somalia with UNISOM tarnished its 
reputation in some quarters. In other places, it is more a 
sense of Somali frustration with the U.N.'s capacity to address 
Somali needs.
    The U.N. does not have much funding now. It is as baffled 
as everyone else is about how to address these very complex 
problems it faces, and in some cases unfortunately it is used 
as a scapegoat for diplomatic problems such as recognition or 
nonrecognition about Somaliland, about which it can do nothing. 
No matter which position it takes it is hammered on both sides.
    It has also put itself in a position in which it is seen as 
having perhaps gotten a little too close to the TNG. It became 
quite an advocate of the TNG. That is actually--the U.N. is a 
bit more divided on that now than it was 6 months ago, but that 
does compromise its ability to serve as a neutral arbiter in 
some quarters, or as a mediator. It still has a very, very 
important role to play, and a crucial role to play, but I am 
not sure it can play the role of mediation right now.
    Ambassador Shinn. I cannot add to the political side of the 
equation, but I would add that some of the U.N. agencies still 
do have fairly good reputations in the country. The World Food 
Program for the most part, although the record has been mixed, 
UNICEF, possibly the World Health Organization. I do not know 
whether they have done anything there recently, but I think one 
does have to make a distinction between the humanitarian side 
of the U.N. effort and the political side of the U.N. effort.
    Senator Feingold. How can the United States work to 
increase the power of civil society? In particular, how can we 
be sure that the United States policy really makes an effort of 
consulting with stakeholders who are not armed, and getting 
them a seat at the table when decisions are being made about 
bilateral relations?
    Ambassador Shinn. Let me take a first stab at that. In the 
first instance there are some things we should not do, and that 
is become too linked to any one or more of the factions in the 
country. I think that is where we get off the track. It is very 
easy to get caught up in a group that professes to believe in 
all the things you believe in, but unfortunately these groups 
believe in different things on different weeks. What they say 
one week may not be the same the next week, so it is a very 
tricky line to walk.
    In terms of getting around the country and talking with 
groups, beyond the political groups there are some there that 
one can deal with, although it is not easy and there are 
security problems in just moving around. You have laid out 
frankly a very, very difficult issue.
    I would suggest that that might be one of the issues that 
could be explored with the Somali diaspora find out what ideas 
they have, realizing full well that they are divided, but they 
may have some thoughts on that.
    Dr. Menkhaus. If I could comment, that points to another 
dilemma we have in assisting Somalia in the long term toward 
development and recovery, both economically and politically, 
and that is that we simultaneously talk to the Somali people 
about our desire to assist and empower civil society, and we 
also emphasize good governance and building capacity at the 
governmental level.
    One of the strategies that many donors and U.N. agencies 
and others have adopted in responding to the perplexing problem 
of who do you work through, who is a legitimate interlocutor at 
the local level when there is no state is, we have punted to 
the local NGO's, and we said, we are just not going to deal 
with the local authorities, and that has had some real 
successes, as we have heard just today.
    The down side is, there are some places in Somalia where 
local nongovernmental organizations have far more money and far 
more influence than the local authorities, than the nascent 
governments at the local level. We need to have a strategy that 
is designed not to inadvertently disembowel or undermine local 
governments if, in fact, we are trying to build them up, and so 
some strategy in terms of balancing the assistance that we give 
to local governments and local NGO's needs to be met.
    Senator Feingold. Let me ask you the same question I asked 
Secretary Kansteiner. How can we avoid the situation where our 
policy responds to various factions within Somalia who 
sometimes smear their opponents with charges of links to al-
Qaeda and other international terrorist groups? The problem 
obviously is these can be employed in self-interested ways, and 
as I asked the Secretary, what steps can the United States 
actually take to avoid being used in this fashion?
    Ambassador Shinn. In the first instance, again, it is a 
question of building up our knowledge and expertise on the 
country which, as I think both Assistant Secretary Kansteiner 
and I pointed out, has been really degraded in recent years. 
Until such time as you have built up that expertise, 
particularly on the ground, or in the case of the southern two-
thirds of Somalia, operating through your Somali-watchers in 
the region, you are going to be at the mercy of trying to 
divine who has it right and who has it wrong, and what is 
acceptable and what is unacceptable. That is a very serious 
dilemma to be in. Even if you are there, you are not always 
going to get it right, as we found out during UNITAF and 
UNOSOM.
    We should also avoid a series of internationally arranged 
conferences on Somalia such as took place at various places 
around the Horn of Africa and East Africa. On these occasions, 
we brought in all of the political factional leaders, and 
occasionally even a few others who did not represent the 
faction leaders. By and large those were not successful, and 
they are not the Somali way of doing things.
    The Somalis are more than happy to accept invitations to 
those conferences, because it means spending several weeks in a 
nice hotel in something other than downtown beautiful 
Mogadishu. But it was not successful, and I do not think we 
ought to be proponents of that way of doing business in the 
future.
    Dr. Menkhaus. If I could add, I think that it would be a 
mistake for us to rely on any of the faction leaders for 
intelligence or information. That would be the short answer. 
There are hundreds and hundreds of wonderful, articulate, 
thoughtful Somalis out there who follow political events in 
their country closely and who, if you get to know them and you 
establish a relationship with them, can provide invaluable 
insights and very reliable ones, but that takes time for us to 
buildup that kind of network.
    Mr. Macpherson. I would just like to add, I jotted a note 
here that the greatest lesson that Somalia teaches an outsider 
is patience, but I have to say from when I left there in 1993 I 
absolutely thought there was not a chance, and I meant what we 
wrote here. Each time I have gone back, you have seen this 
incremental development, and it takes time to get to know the 
people, and it really is grassroots. The problem is, in that 
case it is a bottom-up process rather than a top-down to get in 
there, find out who the leaders really are, and that is an 
enormous problem.
    And look, we have had great successes, and we have had some 
real challenges out there, but it is working because we have 
got in at the bottom, met the people, and worked with them.
    Senator Feingold. Well, your encouraging remarks are 
certainly good to hear, and with that I will turn to Senator 
Nelson for a round of questions or comments.
    Senator Nelson. Thank you, Mr. Chairman. It seems like that 
once we accomplish our goals in Afghanistan, that as we look 
around to other areas that are ripe for terrorist takeover, 
that Somalia is clearly one of those areas, with all of the 
factionalism and with some of the things that are being taught 
there. I would like to hear your thoughts on that.
    Dr. Menkhaus. I would say that one thing that would be very 
useful for your subcommittee is to, as you look at weak states 
and where an expanded war on terrorism could turn to, 
distinguish between different types of states, or if our goal 
is to drain the swamp, maybe the metaphor is to look at 
different swamplands.
    Somalia is a special case in that it is a completely 
collapsed state, and I think our process of deduction leads us 
to worry a great deal about that. If there is no government at 
all, and there are some Islamic radical movements there, we 
could anticipate seeing problems there.
    One of the things that struck me, though, is the extent to 
which radical Islamic movements and terrorists have not really 
taken root in Somalia. In fact, you would expect it to be much 
worse than it actually is. The more I look at Somalia, the more 
I think that some of the problems that plague our humanitarian 
agencies and the U.N. political efforts and so on are also 
problems for radical terrorist groups.
    When you try to operate as an organized movement in a 
collapsed state, you are very visible. I would actually 
anticipate radical Islamic movements using Somalia in a 
division of labor in kind of a niche role, and transshipment, 
short-term operations, where you could move men, materials, 
money in and out of the country are very easy to do. Anyone can 
be bought on a short-term deal, but for the long run you make 
yourself very vulnerable, very exposed, and precisely because 
there is a collapsed state it is actually much less complicated 
politically for the United States to go after you directly.
    I would worry more about weak states, states that they 
exist, they have got governmental functions, but they have lost 
control of large, teaming slums. They are places where a 
network of radicals could disappear and not be noticed. They 
will be noticed in Somalia, therefore I am not quite as worried 
about that becoming a permanent base for, say, an al-Qaeda, but 
as a transshipment site I worry a great deal.
    Ambassador Shinn. As I indicated in my remarks, Senator, I 
think al-Ittihad, which is the terrorist organization one 
normally identifies in the case of Somalia is, in fact, a 
terrorist organization, albeit perhaps with a rather limited 
agenda and not necessarily particularly focused against the 
United States.
    The key, however, is that Somalia is not by any means the 
same as Afghanistan. It is an area that deserves very careful 
attention, but it simply does not have the kind of terrorist 
infrastructure that Afghanistan clearly had and that we all 
know about now.
    The way to deal with what you have in a place like Somalia 
is to take those long-term steps which are being talked about 
in this hearing you need to try to help recreate--and I will 
avoid the word, nation-building, but I must say, when you get 
right down to it, that is really what you are talking about--
and to take those steps that permit some kind of a rule of law 
and a modicum of central authority, albeit in a Federalist 
system.
    It does not make that much difference how it plays out over 
time, but until you have that in Somalia, groups like al-
Ittihad are going to be a problem, perhaps not a huge problem, 
but nevertheless a problem. I think that is what has to be done 
to grapple with it.
    Senator Feingold. Just on that point of nation-building, I 
think it is so important to remember that some of us have 
concerns about our military being involved in nation-building, 
but the phrase itself is one that should not be tarnished by 
that concern. There are many other ways in which we can address 
this for our own national security interest.
    I would like to get back to something that I asked the 
Secretary, and given the fact that you are experts in this 
area, I would like your comments too, again. It is about the 
Ethiopian and Kenyan interests in Somalia. Are they necessarily 
contradictory? We heard somewhat encouraging words from the 
Secretary about some contact, or perhaps coordination between 
them, but what are your views on how realistic that is?
    Ambassador Shinn. I think the bottom line is, they are not 
contradictory. There are nuances of differences in the way they 
approach Somalia and, indeed, one of the things that I would 
like to see come out of the Kenyan Government is more attention 
to the movement of al-Ittihad and any like-minded individuals 
or groups that pass through the Somali-inhabited area of Kenya. 
I think by and large Kenya has taken a much more laissez-faire 
approach to this. They have been willing to look the other way 
on occasion, when they know people are moving through. Perhaps 
people have been bought off at borders.
    The Ethiopians, on the other hand, take a very different 
approach. They will cross the border and bash the folks on the 
other side, and they have done that on a number of occasions. 
Tactically there are differences in their approach, but both 
countries know, and both countries have historical precedents 
to prove that they have been at the brunt of attacks coming out 
of Somalia with the goal of irredentism. In that sense the two 
countries have a common concern. It is just that tactically the 
two have looked at it differently.
    Senator Feingold. Doctor, did you want to comment on that?
    Dr. Menkhaus. I agree.
    Senator Feingold. Let me ask this, then. To what degree 
does Somaliland, where I understand--again, we talked about 
this--the authorities most consolidated actually have control 
or even knowledge of who or what crosses its borders or arrives 
on its coast. Could somebody comment on that?
    Mr. Macpherson. I cannot speak for the coast, but I can 
certainly speak for some of the borders there, and one reason 
is a lot of the demining or mine action work that we have done 
in that region. They are aware, and they have structures, 
police and local authorities who actually monitor what is 
coming and going, and I am acutely aware of that, because of 
just the number of people we had to have moving back and forth, 
the permission, the people who observed what we were doing, and 
keeping an eye on how this thing went.
    That was one of the most impressive things I found about 
Somaliland, was that there was this sense of presence. There 
was a government in charge, and they let you know it.
    Senator Feingold. Is there any assistance they need in 
doing this? Is there anything that would improve their 
capacity, and are there any pitfalls in providing that kind of 
assistance?
    Mr. Macpherson. Well, I am going to put a hat on. As a 
marine in Mogadishu, the one thing that I applauded from the 
minute it started in Operation Restore Hope, and that was to 
rebuild the police force and to assist in everything from the 
ground up, and there was nothing, absolutely nothing. You had 
guys standing out there with a stick in their hand who were 
making heroic efforts to bring some type of authority back to 
the streets in Somaliland. I think that would be something we 
could assist with, we the U.S. Government, that would make an 
impact.
    Senator Feingold. Fair enough.
    Let me get back to something you have all touched on, but 
it has to do with the incentives and disincentives that might 
convince factions in Somalia not only to avoid any association 
with terrorism, but also to work toward development and 
stability. What carrots and sticks have meanings for the 
existing power-seekers in Somalia?
    Dr. Menkhaus. Well, if we could start with our economic 
toolbox, we have lots of tools in that, both carrots and 
sticks, as we have shown with Al-Barakaat. We can close down a 
large business if it is perceived to have been infiltrated or 
owned by radical terrorist group, but we also have an enormous 
number of carrots.
    We certainly could sit down with the top business people in 
the country, a few dozen really king-makers in the country, and 
work out arrangements in which they come to understand that we 
have legitimate security needs. They are going to need to be 
much more transparent and accountable in terms of money flows 
through their organization, and in return we can do things to 
provide credit, perhaps because that is one of the reasons some 
may have turned to al-Qaeda, is simply for credit for loans to 
facilitate transactions between the diaspora and the country.
    The fact is that that is the No. 1 source of hard currency 
for Somalia now, far and away the single most important source 
of currency. If we can facilitate that in any way, they are 
certainly happy to do that. They have been thrilled with the 
partnerships they have had with American business people in 
Telecom and other sectors.
    They have got a problem, as we have heard from Assistant 
Secretary Kansteiner, with the livestock export ban. They are 
asking us and others to help with chilled meat factories near 
airstrips that could then get the meat out to markets abroad. I 
mean, there are so many ways that we can sweeten the pot just 
in terms of economics.
    Ambassador Shinn. I do not want to overemphasize the role 
the American private sector can play in a place as conflicted 
as Somalia is, but I think Ken is right, in part because the 
Somalis are some of the most tremendous businessmen and women 
in the world. They are truly astoundingly good at doing 
business.
    I visited Somalia in 1996, and I was astounded to find at 
that time that they had probably the most sophisticated cell 
phone operation of any place in Africa, and for the lowest 
rates on the continent, and using by and large American 
equipment. Al-Barakaat, the money changing organization that 
has been shut down, also had a telecommunications operation in 
which it ran AT&T long distance service.
    These folks know how to make this stuff work, and you do 
have to work with the business community. You have to bring 
them into the equation. I do not know whether that is a carrot 
or a stick, but it is something one can work with, and you 
cannot say that about every country in the world.
    Senator Feingold. Thank you. Senator Nelson.
    Senator Nelson. Help me understand something of the 
political instability now that was born out of the previous 
regime of Siad Barre.
    Dr. Menkhaus. The political instability in Somalia has, in 
my view, gone through cycles. It is a radically localized set 
of polities, and has been since the collapse of the state, but 
we have seen periods of relative calm and political 
consolidation, typically at the regional level, and then we 
have seen things fall apart.
    I think we are currently in a phase, I would say, of some 
political deterioration. Part of that is born of the many 
levels of tensions that were created when the Transitional 
National Government was established. Up to that point, we were 
seeing security levels in Mogadishu and parts of southern 
Somalia that were better than we have seen since the departure 
of UNISOM.
    Now, there are tensions that I am in some cases quite 
concerned about, the possibility of much larger-scale warfare 
than we have seen in a number of years. That has been one of 
the interesting trends in conflict itself in Somalia. It 
continues to be a place, especially southern Somalia, of 
sporadic armed conflict, but it is much more localized now. 
Instead of having major factions fighting one another you have 
got subclans fighting one another. Those fights tend to be much 
shorter, in part because the clan elders can step in and stop 
it. They tend to be shorter because the Somali diaspora in 
local communities are not willing to fund that kind of fight.
    Senator Nelson. And what about the previous regime caused 
this to split apart as it is now?
    Dr. Menkhaus. To go back to the root causes of some of 
this, you could write a book on that, obviously, but there are 
plenty. Somalia's conflicts are born in part of a history of 
severe repression by the Siad Barre regime and reaction to 
that, to ethnic tensions that the regime exploited in a divide-
and-rule campaign, and Somalis are still paying the price for 
that. The high level of military assistance, first that came 
from the Soviet Union, then from the West, that provided such 
heavy levels of armaments, a very explosive level.
    And then in the end I think one of the underlying causes 
was just the size and the nature of the Somali State under Siad 
Barre itself. This was, as I alluded to earlier, a castle built 
on sand. One hundred percent of Somalia's development budget 
was supplied from outside, 50 percent of its recurring budget 
was supplied through foreign aid. The moment that that foreign 
aid was cut, when Somalia became less strategically important, 
the state shrivelled.
    Barre used the state for patronage purposes. He had a 
bloated civil service. He had a huge army. That was all 
designed to buy people off. Once he lost that, he lost the 
capacity--the center could not hold, and that is one of the 
worries I have about a quick fix for a collapsed state like 
Somalia. If the answer to the problem in some views is we need 
to rebuild the state, and if it takes throwing money at it, so 
be it, then I am afraid we are just setting ourselves up for 
another failure on that score.
    Senator Nelson. Earlier, you said that you did not think 
that the religious climate there was conducive to the radical 
Islamic element, and yet we keep reading a flurry of press 
speculation that that is where we are going next. How would you 
reconcile the two?
    Dr. Menkhaus. In every country in the world there are going 
to be religious extremists, no matter what the circumstances, 
and Somalia is no exception, and they do have cells, al-Ittihad 
cells. There is some evidence that some members of al-Ittihad 
have had links with al-Qaeda as well. What I am arguing is that 
at a social level, at a broader level there is not nearly as 
much support in Somalia for the movement than one might 
anticipate, given the circumstances that Somalis are in.
    I attribute that in large part to a fundamental pragmatism 
in Somali culture. To the extent that they do gravitate to 
these kinds of ideologies, as they did 30 years ago with 
socialism--suddenly everyone was a socialist. Why? Because 
there were tangible benefits coming from the outside world.
    I think that some of the attractiveness of al-Ittihad and 
the al-Qaeda radical Islamic movements is because they are 
perceived to be the only external interest in Somalia that is 
providing schools and providing loans to businessmen. That 
seems to be providing tangible results, and that is why I argue 
we have got the carrots as well as the sticks to change that 
calculation.
    Ambassador Shinn. If I could just add on that point, 
although I do not purport to be an expert on Islam, the kind of 
Islam that al-Ittihad is representing is of the Wahabi sect 
from Saudi Arabia and from the gulf. The traditional sect of or 
creed of Islam in the Horn of Africa is Sufiism. Right from the 
get-go there is a disconnect between what al-Ittihad is pushing 
and what the local people have traditionally accepted. For the 
reasons that Ken has laid out there is a certain acceptance of 
what al-Ittihad brings to the table, because it includes things 
that the people want.
    Now, how committed most of these people are to what al-
Ittihad is selling on the terrorist side, who knows, but I 
think that this is basically not fertile ground for any 
widespread terrorist-type movement brought in by a group like 
al-Ittihad or any similar group.
    Senator Feingold. Thank you, Senator Nelson, for your 
questions and your participation. We will be starting votes in 
just a couple of minutes, so I just want to ask one more 
question.
    Ambassador Shinn's written testimony states the list of 
failed aid projects in Somalia is disturbingly long. What 
lessons can be drawn from failed projects, what went wrong, and 
how can those mistakes be avoided in the future?
    Ambassador Shinn. A good question, and having said that, I 
led off that part of my testimony with strong support for 
targeted aid, that is, smaller projects working through 
international and local NGO's dealing with things like road 
rehabilitation, assisting local communities with primary 
schools, et cetera. Those kinds of things can work, and even 
some of the larger projects can and have worked in the past.
    The ports of Berbera, Bosasso, Kismayo and Mogadishu were 
all international development projects, and even though some of 
those ports have gone into disrepair due to conflict, or due to 
silting over, they were very successful ports in their day. A 
couple of them are still very successful.
    On the other hand, a lot of big-dollar projects that the 
international community went into were not well-designed for 
Somalia. They did not produce what they were supposed to 
produce, and ended up, I suspect, in an awful lot of corruption 
in the government at the time, the Siad Barre government. One 
has to be very alert to the corruption element, and one has to 
look very carefully at the size of projects.
    They have to be carefully programmed for that country. You 
cannot throw huge amounts of money at the development effort. 
You have to begin, in my view, quite small, but I think you can 
do that successfully and build over time, and bring the local 
Somali community in your efforts so that you minimize the 
corruption element. They are not all going to be successes. 
There are going to be some failures, but I think it is possible 
to do small projects, and do them well, working with NGO's.
    Dr. Menkhaus. I spent a year in UNISOM, and we spent an 
awful lot of time trying to buildup certain types of aid 
projects there, and one of the things that strikes me when I go 
back to Somalia today is, despite all of the energies and money 
and training that we put into district councils as part of a 
bottom-up political process there, you cannot find a district 
council today. They have virtually all vanished, despite our 
best efforts.
    Meanwhile, we did nothing for the private sector. It did 
not even occur to us to work to buildup a private sector, and 
now you go over there and you see that there are these very 
innovative entrepreneur sectors of the economy that are very, 
very dynamic, and the lesson that that holds for me is that we 
have got to be sure we are swimming with the tide in Somalia, 
and not against the tide when it comes to foreign aid, that 
foreign assistance needs to facilitate trends and innovations 
that are already happening in Somalia anyway, and not trying to 
impose something that has been thought up in the World Bank or 
U.N. office.
    Mr. Macpherson. I cannot help but echo that, and that is 
the greatest lesson that we have learned there, and I really 
liked what the Ambassador said, in essence, targeted and modest 
right from the beginning and, as obvious as it sounds, to 
incorporate the Somalis in the process. It is not a World Bank 
level. It is what really works on the ground, how many miles or 
kilometers of road need to be cleared to get the food to market 
or the kids to school.
    And the last thing is, is the glass half full or half 
empty? From 1993 on, it is amazing to me that a nation-state 
that completely collapsed could hold back some of the 
influences that have been pressured on it from the outside. It 
says an awful lot about the culture and the character of the 
Somali people. With the terrorist aspect, it is amazing that it 
is not prevalent throughout that entire nation, and that is 
probably all I should say on it.
    Senator Feingold. Well, I want to thank all of you. As a 
concluding remark, let me say that this is through your great 
efforts exactly what we had hoped this first hearing on this 
subject would produce.
    Looking back, obviously one of the lessons of September 11 
is that there is no way that this Nation any more can simply 
ignore festering situations, even in places in the world that 
we know very little about, because of the potential 
consequences not just for the people there, or in that region, 
but for the consequences for ourselves and our children. That 
is the lesson going back.
    Going forward, the President has correctly called on us to 
not lose our focus, that this is going to be a long struggle 
that may involve military and other activity involving some 
traditional countries that we are concerned about, but I think 
he has to call for, and we all have to call for a similar 
forward-focus over the long term in situations like this, and 
that is going to be a challenge.
    I think your last comments were perhaps the most helpful. 
Clearly, we cannot return to simply ignoring a place like 
Somalia or a place like Sierra Leone. On the other hand, if we 
try to just jump in or do everything or go against the grain, 
not only will it not work, but the American people will be very 
concerned that we are going to use enormous resources that many 
of them will be perceiving as wasted, so we have to do it in a 
measured way, but I am grateful to all of you for getting us 
off on the right track, and with that, with perfect timing----
    Senator Nelson. Mr. Chairman, may I say one other thing? I 
cannot resist saying this, but the discussion of this subject 
of Somalia takes me back to January 1986, looking at Somalia 
from the window of our spacecraft, and I am telling you this 
simply to tell you it is one of the most beautiful parts of the 
world from space, because of the color contrast of the reddish 
brown of the land as brilliantly contrasted against the 
brilliant blue of the water of the ocean, and it is 
particularly vivid in my mind's eye on that, as compared to 
other parts of the globe, that look much more of a dull brown 
when you look at a land mass, but that was so rich in its tones 
of color, bright brown, bright orange, set off against the deep 
blue.
    Senator Feingold. Well, if anyone has had a better claim to 
having a unique perspective, I think that is a perfect way to 
conclude the hearing.
    [Whereupon, at 4:20 p.m., the subcommittee adjourned.]

                                   - 

</pre></body></html>
